                        U.S. Department of Agriculture

                           Office of Inspector General
                                      Northeast Region




             Audit Report

Animal and Plant Health Inspection Service
       Oversight of the Importation
     of Beef Products from Canada




                              Report No. 33601-01-Hy
                                      February 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


DATE:          February 14, 2005

REPLY TO
ATTN OF:       33601-01-Hy

SUBJECT:       Oversight of the Importation of Beef Products from Canada

TO:            W. Ron DeHaven
               Administrator
               Animal and Plant Health Inspection Service

               Barbara J. Masters
               Acting Administrator
               Food Safety and Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator
               Marketing and Regulatory Programs – Business Services

               Ronald F. Hicks
               Assistant Administrator
               Office of Program Evaluation, Enforcement and Review


This report presents the results of our audit of oversight of the importation of beef products from
Canada. Your response to the draft, dated February 9, 2005, is included as exhibit A. Excerpts
of your response and the Office of Inspector General’s (OIG) position are incorporated into the
Findings and Recommendations section of the report. Based on your response, management
decision has been reached on all recommendations except No. 3. Please follow your agency’s
internal procedures in forwarding documentation for final action to the Office of the Chief
Financial Officer. Management decisions for the remaining recommendation can be reached
once you have provided the additional information outlined in the report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation of the
remaining recommendation. Please note that the regulation requires management decision to be
reached on all recommendations within 6 months of report issuance


        /s/

ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Animal and Plant Health Inspection Service’s Oversight of the Importation of Beef
Products from Canada (Audit Report No. 33601-01-Hy)

Results in Brief                 This report presents the results of the Office of Inspector General’s (OIG)
                                 audit of the Animal and Plant Health Inspection Service’s (APHIS) oversight
                                 of the importation of beef products from Canada following the detection of a
                                 Canadian cow with bovine spongiform encephalopathy (BSE) in May 2003.
                                 In June 2004, we initiated several actions in response to concerns raised by
                                 four U.S. Senators that the U.S. Department of Agriculture (USDA) did not
                                 follow appropriate safety measures, beginning sometime in the fall of 2003,
                                 in allowing expanded Canadian beef imports into the United States. We
                                 reviewed USDA’s actions pertaining to the importation of Canadian
                                 products, including the use of risk mitigation1 measures.

                                 On May 20, 2003, the Secretary halted imports of live cattle, other live
                                 ruminants, beef, and other ruminant products from Canada after a cow in
                                 Alberta was found to have BSE. Prior to this time, there was a free flow of
                                 trade between the United States and Canada for live cattle and beef. Due to
                                 the serious impact on trade, USDA officials sought a method to allow limited
                                 imports from Canada and determined to use the APHIS permit process as a
                                 vehicle to facilitate trade. At that time, APHIS did not have a history of
                                 issuing permits for the importation of edible meat and meat products.
                                 Veterinary import permits were generally issued for items derived from
                                 animals, such as blood, cells or cell lines, hormones, and microorganisms
                                 including bacteria, viruses, protozoa, and fungi.

                                 On August 8, 2003, the Secretary of Agriculture (Secretary) announced a list
                                 of low-risk products, including boneless beef from cattle less than 30 months
                                 of age and veal meat from calves less than 36 weeks of age, which would be
                                 allowed into the United States from Canada, under certain predetermined
                                 conditions. In November 2003, USDA published a proposed rule in the
                                 Federal Register to create a low-risk category for countries with BSE, to
                                 place Canada on that list, and to allow imports of, among other things,
                                 low-risk beef products and live cattle under 30 months of age to resume.
                                 This rule for live animals and processed meat products was issued
                                 January 4, 2005.

                                 The Secretary’s announcement on August 8, 2003, regarding low-risk
                                 products followed USDA’s review of the results of Canada’s epidemiological
                                 investigation into the detection of BSE in that country. Based on the results

1
  Risk mitigations include such actions as certificates indicating the product is pure liver, Canadian Food Inspection Agency (CFIA)
verification that calves were 36 weeks of age or less when slaughtered, and CFIA verification that animals are not known to have been
fed prohibited products during their lifetime.
USDA/OIG-A/33601-01-Hy                                                                                                          Page i
                                  of the investigation, as well as international guidelines2 that indicated that
                                  products derived from young animals do not pose a risk to human health,
                                  USDA issued permits to allow these low-risk products into the United States.

                                  Subsequent to the Secretary’s announcement, APHIS issued 1,155 permits3
                                  allowing the import of a variety of products from Canada, to include many
                                  items that had been included in the Secretary’s announcement as well as
                                  other items that were not initially identified as allowable low-risk products.
                                  In April 2004, a lawsuit was filed in U.S. District Court in Montana, which
                                  resulted in a temporary restraining order that identified the specific low-risk
                                  Canadian products that were eligible for import into the United States. The
                                  list of low-risk products was the same as the list posted on August 15, 2003,
                                  by APHIS on its website as a clarification of the Secretary’s August 8, 2003,
                                  announcement. On May 5, 2004, the District Court converted the temporary
                                  restraining order into a preliminary injunction. Among other things, the
                                  preliminary injunction included an exhibit listing the specific Canadian
                                  products that would be considered low-risk and details of required risk
                                  mitigations.

                                  To accomplish our review of USDA’s actions pertaining to the importation of
                                  Canadian products, we interviewed officials from APHIS, the Food Safety
                                  and Inspection Service (FSIS), and the Office of the General Counsel (OGC).
                                  We analyzed APHIS records relating to the oversight of imported Canadian
                                  product, to include a review of the 1,155 import permits and associated
                                  documentation. We met with personnel from the U.S. Department of
                                  Homeland Security’s Customs and Border Protection (CBP) in Detroit,
                                  Michigan and Sweetgrass, Montana to understand their actions to enforce
                                  restrictions on the importation of ruminant products from Canada. We also
                                  visited FSIS import reinspection facilities located in Buffalo, New York;
                                  Detroit, Michigan; and Sweetgrass, Montana. At these facilities, we analyzed
                                  documentation on file for 12,427 shipments of ruminant products to
                                  determine whether the product imported from Canada met APHIS
                                  requirements. These facilities reinspected more than 646 million of the
                                  802 million pounds of Canadian product presented for entry into the United
                                  States between September 2003 and September 2004.

                                  From August 2003 to April 2004, APHIS officials allowed a gradual
                                  expansion in the types of Canadian beef products approved for import into
                                  the United States. The expansions in product type included processed
                                  products, bone-in product, and edible bovine tongues, hearts, kidneys, and
                                  lips. In October 2003, APHIS allowed bovine tongues despite the APHIS
                                  Transmissible Spongiform Encephalopathy (TSE) Working Group4

2
  The International Office of Epizootics, the international standard-setting organization for animal health, established these guidelines.
3
  As of September 16, 2004.
4
  Created by APHIS to analyze risks of BSE to the United States, disseminate accurate information about TSEs, and act as a reference
source for responding to questions about TSEs.
USDA/OIG-A/33601-01-Hy                                                                                                              Page ii
                                 conclusion in June 2003 that fresh or frozen bovine tongues were “moderate
                                 risk” products,5 even when the required risk mitigations were in place. Thus,
                                 bovine tongues, one of the items for which APHIS approved import permits,
                                 were deemed as posing a “moderate risk,” and not a “low risk” by the APHIS
                                 TSE Working Group.

                                 The Chairperson of the TSE Working Group explained that the risk status for
                                 bovine tongues changed from moderate to low some time between June and
                                 November 2003, although the change was not documented prior to the
                                 November 2003 issuance of APHIS’ “Risk Analysis: BSE Risk from
                                 Importation of Designated Ruminants and Ruminant Products from Canada
                                 into the United States.” The risk analysis categorized bovine tongues as
                                 eligible product when Canadian inspection officials verify the risk mitigation,
                                 which is that tonsils are removed.

                                 Additionally, APHIS allowed an expansion in the type of Canadian facilities
                                 that would be allowed to produce items for export to the United States. The
                                 gradual expansion occurred because the agency employees tasked with
                                 administering the permit process did not consider the initial announcement
                                 made by the Secretary to exclude products similar to those on the published
                                 list of low-risk products, if APHIS had concluded that the products posed
                                 similar risk levels. However, APHIS did not develop documentation to
                                 support the agency’s conclusions that the additional products were low-risk
                                 products. APHIS also did not have a review structure or other monitoring
                                 process in place to identify discrepancies between publicly stated policy and
                                 agency practice. According to APHIS officials, they considered the initial
                                 announcement made by the Secretary to be part of an effort to demonstrate to
                                 the world that such trade with Canada was safe and appropriate.
                                 Accordingly, they allowed the import of products they considered low risk in
                                 an attempt to further that greater effort. However, APHIS did not document
                                 the process it used to determine the additional products were low risk.

                                 As a result of the “permit creep” that occurred between August 2003 and
                                 April 2004, APHIS issued permits for the import of beef tongue as well as
                                 other permits for products with questionable eligibility. Further, the agency
                                 allowed the import of products from Canadian facilities that produced both
                                 eligible and ineligible products, thus increasing the possibility that
                                 higher-risk product could be inadvertently exported to the United States.
                                 This practice contrasted with APHIS’ publicly stated policy that only
                                 Canadian facilities that limited production to eligible products would be
                                 allowed to ship to the United States. In addition, APHIS did not


5
  “Recommendations of APHIS TSE Working Group for allowing certain commodities from Canada to be imported into the United
States,” dated June 16, 2003. When required risk mitigation measures are in place, to include various CFIA verifications, removal of
tonsils, and random sample analysis by USDA of any suspicious tissue to confirm absence of specified risk materials, fresh and frozen
bovine tongues have a “moderate” risk.
USDA/OIG-A/33601-01-Hy                                                                                                        Page iii
                                communicate its decisions to all interested parties and USDA was criticized
                                by segments of the public, the cattle industry, and the U.S. Congress.

                                APHIS issued permits to allow the import of beef cheek meat with
                                questionable eligibility because the agency did not establish a clear working
                                definition for the general term “boneless beef.” Instead of coordinating with
                                FSIS, APHIS reviewers relied upon their own understanding of the term.
                                Some APHIS reviewers considered the term “boneless beef” broadly, to
                                mean any bovine meat that did not contain a bone. Thus, some applicants
                                who requested permits to import beef cheek meat and other products received
                                permits allowing the import of “boneless beef or boneless beef trim.” As a
                                result, over 63,000 pounds of beef cheek meat with questionable eligibility
                                entered U.S. commerce from Canada.

                                Further, we found that FSIS did not always communicate effectively about
                                the eligibility status of beef cheek meat. FSIS distributed information to its
                                import inspectors by way of a series of numbered memoranda, titled Part 4,
                                Canada, BSE Restrictions, Revision 2 through Revision 11. Some of the
                                issuances were supplemented by additional guidance, in the form of
                                supplemental memoranda. However, in our opinion, FSIS managers did not
                                ensure consistent interpretation of the provisions of the various memoranda, a
                                factor that contributed to the entry of the previously mentioned 63,000
                                pounds of beef cheek meat with questionable eligibility. Because APHIS
                                changed its instructions to FSIS frequently and did not document the
                                direction provided to FSIS,6 it was even more difficult for FSIS to keep its
                                field staff fully apprised of the status of product eligibility.

                                FSIS officials did not agree that the import inspectors misinterpreted the
                                instructions in the numbered memoranda. Furthermore, FSIS officials
                                asserted that the 63,000 pounds of beef cheek meat was eligible for import
                                when it was imported from April to June 2004. However, they agreed that
                                controls should be strengthened to better communicate the eligibility of
                                product that frequently changed as beef cheeks did from August 2003 to
                                July 2004. Two FSIS import inspectors we interviewed advised us that beef
                                cheeks had been “going back and forth” regarding eligibility. APHIS
                                notified FSIS that effective July 20, 2004, beef cheek meat was not an
                                eligible product for import into the United States. According to APHIS
                                direction, beef cheek meat has not been eligible for import since
                                July 20, 2004. As of the date of this report, it is still not eligible for import.
                                Some FSIS officials assert that the beef cheek meat was eligible product. In
                                contrast, the APHIS National Incident Commander for BSE Enhanced
                                Surveillance stated in an August 18, 2004 interview, that further discussion
                                was still required with respect to the import of cheek meat and that no new

6
 We found that APHIS did not document its direction to FSIS prior to April 2004 when the Ranchers-Cattlemen Action Legal Fund
(R-CALF) filed a lawsuit against USDA in U.S. District Court in Montana.
USDA/OIG-A/33601-01-Hy                                                                                                   Page iv
                                 scientific information on this topic had been considered by APHIS. Given
                                 the importance of the issues, ongoing litigation, and differences in scientific
                                 opinion, it would have been prudent for APHIS to write down its decisions
                                 about the eligibility status of beef cheek meat at points in time. However, the
                                 agency did not do so; or did not retain such documentation for our review.

                                 In January 2005, FSIS assessed the shipments of beef check meat and
                                 concluded, “FSIS has no reason to believe that these four shipments7 of beef
                                 cheek meat are injurious to health.” In its assessment, FSIS explained that in
                                 January 2004, the agency implemented interim final rules that prohibited the
                                 use of specified risk materials for human food. On the matter of beef cheek
                                 meat, the FSIS rule maintained that beef cheeks are not part of the skull,
                                 which is a specified risk material. The FSIS rule continued to allow the use
                                 of beef cheek meat for human food, provided that the meat is not
                                 contaminated with specified risk materials. FSIS further supported its
                                 conclusion on the basis that Canada had a pre-existing equivalent specified
                                 risk material system in place. However, as previously noted, beef cheek meat
                                 is not a product that is currently eligible to be imported into the United States.

                                 APHIS issued 1,155 permits for the importation of ruminant products from
                                 Canada without ensuring that the agency had an appropriate system of
                                 internal controls to manage the process. The APHIS permit system was
                                 originally designed to allow for the import of research quantities (generally
                                 small amounts) of material into the United States. According to APHIS
                                 officials, this permit system handled approximately 400 permit requests
                                 annually. The procedures that APHIS had developed for handling permit
                                 requests for small amounts of product were not adequate to deal with the high
                                 volume of requests for large quantities of commercial use beef. The agency
                                 did not implement or finalize standard operating procedures for processing
                                 the large volume of permits. For example, APHIS did not establish controls
                                 to ensure that risk mitigation measures were consistently applied. We found
                                 that 8 of the 83 permits issued for bovine liver did not include the risk
                                 mitigation measure that the livers be from animals slaughtered after
                                 August 8, 2003.8 We also found that APHIS did not implement requirements
                                 to perform onsite monitoring of permit holders, Canadian facilities, or
                                 inspection personnel9 at U.S. ports of entry. As a result, there was reduced
                                 assurance that Canadian beef entering the United States was low-risk. Some
                                 product with questionable eligibility, as described above, entered U.S.
                                 commerce.



7
  The four shipments included one shipment identified by FSIS that entered U.S. commerce in April 2004 and three shipments that we
identified that entered U.S. commerce in May and June 2004.
8
  The date the Secretary of Agriculture announced that USDA would begin to accept applications for import permits for certain low-risk
products from Canada.
9
  The inspection personnel include CBP agriculture inspectors and FSIS import inspectors.
USDA/OIG-A/33601-01-Hy                                                                                                        Page v
                   We analyzed data for 9,953 shipments, a 100 percent review of all shipping
                   documents from May 2004 through September 2004, at the 4 FSIS inspection
                   houses that we visited. We also analyzed 11 shipments reinspected in
                   October 2004 by the 2 FSIS inspection houses in Sweetgrass, Montana when
                   we were performing onsite fieldwork. This analysis, a total of 9,964
                   shipments, was based on the preliminary injunction filed on May 5, 2004,
                   that described the ruminant products eligible to be imported from Canada.
                   As part of that review, we identified over 42,000 pounds of product with
                   questionable eligibility.

Recommendations
In Brief           APHIS needs to institute procedures for communicating changes in policy to
                   all interested parties, e.g., importers and the public, and monitoring the
                   consistency between agency practice and publicly stated policy. APHIS also
                   needs to strengthen its controls and finalize its procedures for issuing and
                   monitoring permits for commercial quantities of products.

                   We recommend that FSIS implement controls to communicate the specific
                   eligibility of product when its eligibility status changes. FSIS should also
                   implement an edit check in its import information system to identify
                   ineligible product presented for entry into the United States.

Agency Response    APHIS and FSIS agreed with the report’s recommendations. We have
                   incorporated excerpts from the agencies’ response in the Findings and
                   Recommendations section of this report, along with the OIG position. The
                   response is included as Exhibit A.

OIG Position       Based on the response, we were able to reach management decision on all of
                   the recommendations except No. 3.




USDA/OIG-A/33601-01-Hy                                                                 Page vi
Abbreviations Used in This Report


AIIS                Automated Import Information System
APHIS               Animal and Plant Health Inspection Service
AVIC                Area Veterinarian in Charge
BSE                 Bovine Spongiform Encephalopathy
CBP                 U.S. Customs and Border Protection
CFIA                Canadian Food Inspection Agency
C.F.R.              Code of Federal Regulations
DHS                 U.S. Department of Homeland Security
FSIS                Food Safety and Inspection Service
HCRA                Harvard Center for Risk Analysis
NCIE                National Center for Import-Export
OCFO                Office of the Chief Financial Officer
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
PPQ                 Plant Protection and Quarantine
R-CALF              Ranchers-Cattlemen Action Legal Fund
Secretary           Secretary of Agriculture
SOPs                Standard Operating Procedures
SRM                 Specified Risk Material
TSE                 Transmissible Spongiform Encephalopathy
USDA                United States Department of Agriculture
VRS                 Veterinary Regulatory Services
VS                  Veterinary Services




USDA/OIG-A/33601-01-Hy                                           Page vii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report .....................................................................................................vii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1. Agency Decisions to Expand Canadian Imports........................................................... 6

        Finding 1             APHIS Expanded the Types of Products and Types of Facilities........................... 6
                                 Recommendation No. 1.................................................................................. 13
                                 Recommendation No. 2.................................................................................. 14

    Section 2. Import of Questionable Product .................................................................................. 15

        Finding 2             APHIS Allowed Beef Cheek Meat With Questionable Eligibility to be
                              Imported as Boneless Beef.................................................................................... 15
                                 Recommendation No. 3.................................................................................. 19
                                 Recommendation No. 4.................................................................................. 20
                                 Recommendation No. 5.................................................................................. 20

    Section 3. Controls Over the Permit Process................................................................................ 21

        Finding 3             APHIS Did Not Establish Adequate Controls to Manage the Permit Process...... 21
                                 Recommendation No. 6.................................................................................. 26
                                 Recommendation No. 7.................................................................................. 27
                                 Recommendation No. 8.................................................................................. 27
                                 Recommendation No. 9.................................................................................. 28
                                 Recommendation No. 10................................................................................ 29

Scope and Methodology........................................................................................................................ 31

Exhibit A – Agency Response .............................................................................................................. 34




USDA/OIG-A/33601-01-Hy                                                                                                                 Page viii
Background and Objectives
Background                          The U.S. Department of Agriculture’s (USDA) Animal and Plant Health
                                    Inspection Service (APHIS) is responsible for protecting and promoting U.S.
                                    agricultural health. The APHIS mission is an integral part of USDA’s efforts
                                    to provide the Nation with safe and affordable food.

                                    Since 1989, APHIS has led an interagency effort to monitor bovine
                                    spongiform encephalopathy (BSE), widely known as “mad cow disease.”
                                    BSE is a chronic, degenerative disease affecting the central nervous system
                                    of cattle. Worldwide there have been more than 180,000 cases in cattle since
                                    the disease was first diagnosed in 1986 in Great Britain. BSE belongs to the
                                    family of diseases known as transmissible spongiform encephalopathy (TSE),
                                    the causes of which are not fully known. TSE diseases have a prolonged
                                    incubation period of months or years and result in a progressive, debilitating
                                    neurological illness, which is always fatal. Affected animals may display
                                    changes in temperament, such as nervousness or aggression, abnormal
                                    posture, decreased milk production, or loss of body weight despite continued
                                    appetite. There is no test to detect BSE in a live animal.

                                    After Canada discovered a BSE-infected cow on May 20, 2003, Canada was
                                    added to the Code of Federal Regulations (C.F.R.) listing of regions where
                                    BSE exists. This action was consistent with APHIS program regulations10
                                    that prohibit importation of beef products from regions in which BSE is
                                    known to exist. However, USDA and APHIS officials were interested in
                                    restoring some level of trade with Canada. Accordingly, the APHIS
                                    Administrator requested the agency’s TSE Working Group to determine what
                                    low-risk products from Canada could enter the United States. On
                                    June 16, 2003, the TSE Working Group made its recommendations for
                                    allowing certain commodities from Canada to be imported into the United
                                    States to the APHIS Deputy Administrator for Veterinary Services. The TSE
                                    Working Group categorized each commodity as low, moderate, or high risk
                                    based on both the inherent risk of the product and the effectiveness of
                                    potential risk mitigation. The Chairperson of the TSE Working Group stated
                                    that their recommendations were based on research into BSE that has
                                    occurred since 1990.

                                    On August 8, 2003, the Secretary of Agriculture (Secretary) announced that
                                    USDA would begin to accept applications for import permits for certain
                                    low-risk products from Canada. The Secretary’s announcement followed
                                    USDA’s review of the results of Canada’s epidemiological investigation into
                                    the detection of BSE in that country. Based on the results of the


10
     9 C.F.R. § 94.18(a)(1), January 1, 2003
USDA/OIG-A/33601-01-Hy                                                                                     Page 1
                                     investigation, as well as international guidelines11 that indicate that products
                                     derived from young animals do not pose a risk to human health, USDA
                                     issued permits to allow these products to be imported into the United States.
                                     The regulation12 allows the APHIS Administrator to prescribe the conditions
                                     under which beef products can be brought into or through the United States
                                     under permit. The Secretary’s announcement included the following
                                     Canadian products:

                                     •    Boneless sheep or goat meat from animals under 12 months of age;
                                     •    Boneless bovine meat from cattle under 30 months of age;
                                     •    Boneless veal (meat) from calves that were 36 weeks of age or younger at
                                          slaughter;
                                     •    Fresh or frozen bovine liver;
                                     •    Vaccines for veterinary medicine for non-ruminant use; and
                                     •    Pet products and feed ingredients that contain processed animal protein
                                          and tallow of non-ruminant sources when produced in facilities with
                                          dedicated manufacturing lines.

                                     The list of low-risk Canadian products associated with the August 8, 2003,
                                     announcement specifically excluded manufacturing trim derived from bone,
                                     advanced meat recovery, mechanically separated meat, ground meat, or
                                     low-temperature rendered product. On August 15, 2003, USDA amended the
                                     list of allowable products as a clarification of the August 8, 2003,
                                     announcement. The clarification was in response to questions that came up
                                     after the first list was issued. The list was amended to include “trim” from
                                     boneless beef from cattle less than 30 months of age and veal (including
                                     carcasses) from calves 36 weeks of age or under. This type of “trim” was
                                     part of the boneless product determined to be low-risk by the APHIS TSE
                                     Working Group.

                                     APHIS officials examined the requests for these import permits, taking into
                                     account steps Canada had taken, such as mandating the removal of specified
                                     risk materials (SRM’s), e.g., brain, skull, and spinal cord, from certain cattle
                                     at slaughter, to further reduce any risks associated with the meat products.
                                     The import permits issued by APHIS required that risk-reducing steps be
                                     taken in order for the permit to be valid. APHIS relied on Canadian
                                     inspection officials to certify that the required risk mitigation measures were
                                     in place and operating.

                                     In September 2003, APHIS revised the requirement that Canadian facilities
                                     would not be allowed to export beef or other bovine products to the United
                                     States, under permit, if they handled any products not included on the list of
                                     low-risk materials. On September 4, 2003, APHIS allowed facilities that

11
     The International Office of Epizootics, the international standard-setting organization for animal health, established these guidelines.
12
     9 C.F.R. § 93.401(a), January 1, 2003
USDA/OIG-A/33601-01-Hy                                                                                                                Page 2
                   slaughter cattle over 30 months of age to produce beef for export to the
                   United States, as long as the facilities had an approved product segregation
                   plan. On September 25, 2003, APHIS allowed facilities that process cattle
                   over 30 months of age to export beef product to the United States, as long as
                   the facilities had an approved product segregation plan.

                   On October 3, 2003, APHIS decided to expand the list of low-risk products to
                   include processed products containing beef, e.g., roast beef, ground beef,
                   lasagna, and frozen hamburger patties. On October 22, 2003, APHIS also
                   decided to expand the list of low-risk products to include edible bovine
                   tongues, hearts, kidneys, and lips.

                   On October 31, 2003, USDA released the findings of a second assessment
                   conducted by the Harvard Center for Risk Analysis (HCRA) that confirmed
                   the findings of the initial study released in 2001. The study evaluated the
                   potential for BSE to spread if it were introduced from Canada prior to
                   May 20, 2003, when USDA banned products from Canada due to the
                   discovery of a BSE-infected cow. The assessment specifically examined
                   scenarios for the likely introduction of BSE from Canada into the United
                   States. The scenarios used for this assessment included hypothetical
                   introductions at various times of both infected animals and contaminated
                   animal feed. The study found that even if infected animals or ruminant feed
                   material entered the U.S. animal agriculture system from Canada, the risk of
                   it spreading extensively within the U.S. herd was low, that any possible
                   spread would now have been reversed by controls put in place in the late
                   1990’s, and that eventually, the disease would be eliminated from the United
                   States.

                   On November 4, 2003, APHIS issued a proposed rule in the Federal Register
                   to amend the regulations regarding the importation of animals and animal
                   products. The rule proposed to recognize a category of regions that present a
                   minimal risk of introducing BSE into the United States, via live ruminants
                   and ruminant products. The proposed minimal risk regions would include
                   regions in which an animal has been diagnosed with BSE but in which
                   specific preventative measures have been in place for an appropriate period
                   of time to reduce the risk of BSE being introduced to the United States. The
                   preventative measures included: (1) restrictions on the importation of
                   animals and animal products sufficient to minimize the possibility that
                   infected animals or animal products from regions at higher risk for BSE
                   would be imported into the proposed minimal risk region; (2) surveillance for
                   BSE at levels that meet or exceed recommendations by the International
                   Office of Epizootics, the international organization of animal health; and
                   (3) a ban on feeding of ruminant protein to ruminants. In the proposed rule,
                   APHIS explained that it intended to add Canada to the list of minimal risk
                   regions.

USDA/OIG-A/33601-01-Hy                                                                   Page 3
                   In the November 4, 2003, proposed rule, APHIS proposed to allow the
                   importation of certain live ruminants and ruminant products and byproducts
                   from minimal risk regions. The ruminant and ruminant products included
                   such items as: (1) bovine animals less than 30 months of age for immediate
                   slaughter; (2) bovine animals for feeding to be moved to a designated feedlot
                   and then to slaughter at less than 30 months of age; (3) fresh meats from
                   bovines less than 30 months of age; (4) fresh whole or half carcasses of
                   bovines less than 30 months of age; (5) bovine liver; and (6) certain types of
                   gelatin and tallow.

                   On November 25, 2003, APHIS decided to allow Canadian facilities that
                   receive and process bone-in beef product from the United States, New
                   Zealand, or Australia to export bone-in beef product to the United States.

                   On January 12, 2004, the Food Safety and Inspection Service (FSIS) issued
                   an interim final rule in the Federal Register to amend the Federal meat
                   inspection regulations to designate certain material as SRM’s, declare these
                   SRM’s as inedible, and prohibit their use for human food. The items listed as
                   SRM’s were: the brain, skull, eyes, trigeminal ganglia, spinal cord, vertebral
                   column (excluding the vertebrae of the tail, the traverse processes of the
                   thoracic and lumbar vertebrae, and the wings of the sacrum), dorsal root
                   ganglia of cattle 30 months of age and older, tonsils, and distal ileum of the
                   small intestine of all cattle.

                   On March 8, 2004, APHIS reopened in the Federal Register the comment
                   period on the proposed rule that the agency issued on November 4, 2003. On
                   December 23, 2003, USDA had announced a presumptive positive case of
                   BSE in a Holstein cow in Washington State. An international reference
                   laboratory in England verified the diagnosis on December 25, 2003.
                   Detection of BSE in the imported cow in Washington State occurred after
                   APHIS conducted its analysis of the risk of importing ruminants and
                   ruminant products and byproducts under the conditions of the
                   November 4, 2003, proposed rule. APHIS asserted that it was important for
                   the agency to explain the extent to which it believed that detection might
                   affect the conclusions of the risk analysis, and, consequently, the validity of
                   the proposed rule. Based on APHIS’ original risk analysis, along with risk
                   mitigation measures currently in place and those that would be added by the
                   proposed rule, the agency concluded that a BSE case in a second cow of
                   Canadian origin did not alter its risk estimate. On January 4, 2005, the rule
                   proposed by APHIS on November 4, 2003, was published in the Federal
                   Register. The rule is scheduled to become effective on March 7, 2005.

                   The March 8, 2004, Federal Register notice explained that FSIS had
                   designated certain SRM’s and prohibited the SRM’s from the human food
                   supply. Accordingly, APHIS did not continue to believe that it was
                   necessary to require that beef imported from BSE minimal risk regions be
USDA/OIG-A/33601-01-Hy                                                                     Page 4
                   derived only from cattle less than 30 months of age, provided equivalent
                   measures are in place to ensure that SRM’s are removed when the animals
                   are slaughtered, and that such measures as are necessary are in place. APHIS
                   had concluded that such measures had already been put in place in Canada.

                   On April 19, 2004, APHIS announced that beef products eligible for import
                   into the United States included bone-in, boneless, ground meat, and further
                   processed beef products. This action led to a lawsuit filed by the
                   Ranchers-Cattlemen Action Legal Fund (R-CALF) in U.S. District Court in
                   Montana, which resulted in a preliminary injunction that identified the low-
                   risk Canadian products that were eligible for import into the United States.
                   The list of low-risk products was the same as the list posted on
                   August 15, 2003, by APHIS on its website as a clarification of the Secretary’s
                   August 8, 2003, announcement.

                   On May 20, 2004, and June 23, 2004, the Inspector General received letters
                   from four U.S. Senators expressing concerns about USDA’s actions
                   regarding the importation of Canadian beef products into the United States.
                   The Senators expressed concern that USDA did not follow appropriate safety
                   measures in allowing expanded Canadian beef imports into the United States.

Objectives         Our audit objective was to evaluate APHIS’ oversight of the importation of
                   products from Canada. Specifically, we determined whether (1) APHIS met
                   existing regulatory requirements and established policies and procedures
                   when it issued permits allowing the importation of Canadian beef products,
                   (2) actions taken by APHIS to expand the scope of approved permits to
                   import Canadian beef products met existing requirements and procedures,
                   (3) APHIS properly considered and implemented risk mitigation measures,
                   and (4) APHIS kept other Federal agencies (e.g., USDA’s FSIS and the U.S.
                   Department of Homeland Security’s (DHS) Customs and Border Protection
                   (CBP)) adequately apprised of matters regarding the importation of Canadian
                   beef products.

                   To accomplish our objectives, we performed fieldwork at APHIS
                   headquarters in Riverdale, Maryland. We analyzed the 1,155 import permits
                   issued by APHIS from August 2003 to September 2004 and evaluated the
                   controls under which they were processed. We visited four FSIS import
                   reinspection houses and two ports of entry to test the adequacy of controls
                   implemented to ensure that only eligible Canadian product entered the United
                   States. We also met with officials from USDA’s FSIS and DHS’ CBP in
                   Washington, D.C. to understand how APHIS informed them about matters
                   regarding the importation of Canadian beef products. (See Scope and
                   Methodology for details.)




USDA/OIG-A/33601-01-Hy                                                                    Page 5
Findings and Recommendations
Section 1. Agency Decisions to Expand Canadian Imports



Finding 1          APHIS Expanded the Types of Products and Types of Facilities

                   From August 2003 to April 2004, APHIS allowed the expansion of the types
                   of Canadian beef products approved for import into the United States. The
                   expansions in product type included processed products, bone-in product, and
                   edible bovine tongues, hearts, kidneys, and lips. During this period, APHIS
                   also allowed expansions of the types of Canadian facilities approved to
                   produce items for export to the United States. These expansions conflicted
                   with public announcements by USDA, and APHIS did not seek public
                   comments on these changes. According to APHIS officials, this occurred
                   because APHIS officials believed that the list of low-risk products included
                   in the initial August 8, 2003, announcement was not intended to exclude
                   similar products that posed similar risk levels. Agency officials asserted that
                   they believed that they could add products to the list if the risk factors and
                   risk levels associated with such products were consistent with the products
                   listed in the initial announcement. APHIS officials considered the initial
                   announcement made by the Secretary to be part of an effort to demonstrate to
                   the world that such trade with Canada was safe and appropriate.
                   Accordingly, they allowed the import of products they considered low risk in
                   an attempt to further that greater effort. As a result, APHIS did not
                   communicate these actions and explain them to all interested parties, products
                   with questionable eligibility entered U.S. commerce, and segments of the
                   public, the cattle industry, and the U.S. Congress criticized USDA.

                   •     Allowing the import of processed products. The initial August 8, 2003,
                         announcement of the beef products allowed as imports from Canada did
                         not include processed products. However, APHIS employees almost
                         immediately began issuing permits for a variety of processed items,
                         which was not consistent with the APHIS published listing of low-risk
                         products. On August 27, 2003, APHIS issued the first permit that
                         allowed the importation of processed products containing beef, e.g., roast
                         beef, beef pastrami, corned beef, and pizza with beef topping. APHIS did
                         not announce or otherwise publicize the decision to allow the importation
                         of Canadian processed beef product. According to APHIS officials,
                         announcing this decision was not necessary because the processed
                         products were no different than any other low-risk product that was
                         already permitted to enter. An APHIS official explained that they
                         communicated the decisions to importers on a case-by-case basis, as
                         APHIS received requests to import processed product. The agency did
                         not have a review structure or other monitoring process in place to

USDA/OIG-A/33601-01-Hy                                                                      Page 6
                         identify the discrepancy between publicly stated policy and agency
                         practice.

                         In October 2003, after the issuance of multiple permits for processed
                         products, the APHIS Administrator formally decided to allow Canadian
                         processed beef products to be imported into the United States. This
                         decision allowed ground beef to enter when included in processed
                         products but continued to prohibit the direct import of ground beef. The
                         decision also allowed the import of processed beef products (ground beef,
                         low temperature rendered products, and other processed products that
                         lose their identity) when coupled with specified risk mitigation measures.
                         In the decision memorandum documenting his decision, the APHIS
                         Administrator noted that this allowed the use of certain ground products
                         and demonstrated acceptance of the Canadian Food Inspection Agency’s
                         (CFIA) control of process verification steps. The APHIS Administrator
                         also noted that this decision would appear to be inconsistent by allowing
                         ground beef to be imported in certain processed products while
                         continuing to prohibit the direct import of ground beef.

                         The APHIS Administrator further expanded the decision on processed
                         product on October 23, 2003, to allow the direct import of ground meat.
                         The memorandum documenting the APHIS Administrator’s decision
                         noted that this decision addressed industry concerns that permit policies
                         were too restrictive for trade and maintained consistency by allowing the
                         entry of meat from animals less than 30 months of age regardless of
                         processing. The decision memorandum also noted that this decision
                         constituted a significant change in policy without opportunity for public
                         comment. Further, the decision noted that this change increased the
                         possibility that higher-risk product – mechanically separated product or
                         product from animals more than 30 months of age – may be imported into
                         the United States due to possibilities of a breakdown in the segregation
                         process in the facility or of mislabeling. Nevertheless, the Administrator
                         decided to allow the direct import of ground meat.

                         The APHIS Administrator’s memorandum documenting the decision to
                         allow the import of processed meat, either in processed product or
                         directly, included the requirement that the product would be “processed in
                         a CFIA inspected processing facility that has a CFIA approved
                         segregation plan … that has undergone review and approval by the
                         National Center for Import and Export (NCIE).” APHIS officials
                         explained that this requirement only applies if the processing facility
                         receives meat from animals less than 30 months of age and meat from
                         animals more than 30 months of age. In our opinion, this requirement, as
                         documented in the decision memorandum, applied to all facilities that
                         processed meat. However, when we attempted to review the segregation
                         plans that were required by the decision memorandum, the Director of the
USDA/OIG-A/33601-01-Hy                                                                      Page 7
                         APHIS NCIE advised us that only one such plan had been received and
                         that plan had not been considered to be acceptable. That is, not a single
                         Canadian facility met the minimum requirement, set forth in the
                         Administrator’s decision memorandum, of having a product segregation
                         plan that had been reviewed and approved by APHIS NCIE.
                         Nevertheless, our review disclosed that APHIS issued at least 55 permits
                         allowing the import of such processed beef products as ground beef,
                         frozen hamburger patties, lasagna, meatballs, pot roasts, potpies,
                         casseroles, pepperoni, jerky, sausage, and frankfurters. According to data
                         maintained by FSIS, over 5.6 million pounds of processed products
                         entered U.S. commerce from September 1, 2003 to April 30, 2004.

                   •     Allowing imports from Canadian facilities that handle higher-risk
                         products. One of the requirements put in place on August 8, 2003, was
                         that Canadian facilities would not be allowed to export beef or other
                         bovine products to the United States, under permit, if they handled any
                         products not included on the list of low-risk materials. That is, for a
                         slaughter facility to prepare beef for export, the facility would be required
                         to limit its slaughter of cattle to those under 30 months of age that had not
                         been fed prohibited products. The purpose of this condition was to
                         reduce the chance that higher-risk product (mechanically separated
                         product or product from animals more than 30 months of age) would be
                         accidentally co-mingled with the low-risk product and exported to the
                         United States. In less than a month, on September 4, 2003, APHIS
                         decided to allow facilities that slaughter older cattle to produce beef for
                         export to the United States, as long as the facility had an approved
                         product segregation plan. APHIS officials did not announce or otherwise
                         publicize this change in practice. APHIS relied on CFIA to certify that
                         required risk mitigation measures were in place.

                         Another expansion of the types of facilities eligible to export products to
                         the United States occurred after the National Food Processors Association
                         requested permission to import otherwise eligible products that were
                         further processed at Canadian facilities that also processed ineligible
                         products. On September 25, 2003, APHIS agreed to allow this practice,
                         but did not make any public announcement. A decision memorandum
                         approved by the APHIS Administrator on October 23, 2003, documented
                         the various options considered.

                         According to the decision memorandum, the change in practice addressed
                         industry concerns that permit policies were too restrictive for trade.
                         Additionally, APHIS considered that allowing the entry of meat from
                         animals less than 30 months of age, regardless of processing, provided
                         more consistency than previous policy. The memorandum notes that
                         disadvantages of this decision included enacting a change in policy
                         without opportunity for public comment and an increased possibility that
USDA/OIG-A/33601-01-Hy                                                                         Page 8
                         higher-risk product (mechanically separated product or product from
                         animals more than 30 months of age) may be imported into the United
                         States due to possibilities of mislabeling. Nevertheless, the policy change
                         was enacted.

                         If an interested person had consulted the APHIS website in October 2003,
                         they would have been led to believe that APHIS policy allowed Canadian
                         beef to be imported only from facilities that dealt solely in eligible
                         product. The decision made by APHIS to expand the number and type of
                         facilities eligible to export product to the United States was not
                         communicated to the public, although APHIS officials considered the
                         absence of an opportunity for public comment to be a disadvantage of the
                         policy adopted.

                         The policies expanding eligibility to Canadian facilities handling both
                         eligible and ineligible product had a major effect on the ability of
                         importers to bring in Canadian beef. That is, of 300 boneless beef
                         permits issued between August 28, 2003 and April 5, 2004, only one
                         permit was issued for product that would enter the United States from a
                         facility dedicated solely to producing eligible product. The other
                         299 permits allowed beef produced “in compliance with a CFIA approved
                         segregation plan for animals greater than 30 months of age.” If APHIS
                         had continued to require compliance with the provisions as originally set
                         forth in the August 8, 2003, announcement, only 1 of the 300 permits
                         would have been issued. Because neither FSIS nor APHIS tracks the
                         amount of product imported under a specific permit, we were unable to
                         determine how much of the more than 480 million pounds of boneless
                         beef and boneless beef trim reported as imported between
                         September 1, 2003 and April 30, 2004, came in under the single permit.

                         Allowing the import of product from facilities that produce both eligible
                         and ineligible products increases the possibility that higher-risk product
                         could be inadvertently exported to the United States. Initially, facilities
                         producing both eligible and ineligible products were not allowed to
                         export to the United States. The APHIS Administrator’s October 3, 2003,
                         decision to change this practice, stated that the requirement had been
                         modified to allow segregation at slaughter facilities with appropriate
                         company controls and oversight and verification by the CFIA. This was
                         the option recommended by the Deputy Administrator. An incident that
                         occurred in July 2004, illustrates the risk associated with making that
                         change. The assigned Canadian meat inspector had gone on vacation and
                         a substitute inspector accidentally approved mislabeled product. About
                         41,000 pounds of finely textured beef trim, meat scavenged from beef
                         taken off the bone at high pressure and considered to be a higher-risk
                         product by APHIS officials and thus ineligible for import, was mislabeled
                         to indicate that it was an eligible product. The mislabeled ineligible
USDA/OIG-A/33601-01-Hy                                                                       Page 9
                                    product was shipped to the United States. A Pennsylvania firm used the
                                    mislabeled product to make frozen hamburger patties, which were then
                                    distributed to retail establishments in 10 states. When the regular
                                    Canadian inspector returned from vacation, he became aware of the
                                    mislabeling, notified USDA and FSIS officials, and a recall of the
                                    ineligible hamburger ensued. The recall of the beef patties subsequently
                                    resulted in recovery of over 93 percent of the ineligible product.

                                    In an April 26, 2004, temporary restraining order issued by the District
                                    Court in Montana, USDA was enjoined from allowing the import of any
                                    bovine meat other than the products allowed under the August 8, 2003,
                                    announcement. However, APHIS did not immediately address the issue
                                    of ensuring that bovine meat that enters the United States under permit
                                    comes from slaughter facilities that kill only animals less than 30 months
                                    of age. While APHIS officials took some action to cancel certain types of
                                    permits, no effort was made to review or cancel permits that had been
                                    issued allowing the import of meat from facilities that slaughter cattle
                                    older than 30 months. Based on our review, this would have included, at
                                    a minimum, the 299 boneless beef permits previously discussed.

                                    The subsequent preliminary injunction, issued on May 5, 2004, reinforced
                                    the requirement that limited imported Canadian beef to product
                                    slaughtered in facilities that did not kill animals over 30 months. APHIS
                                    officials considered that there was not a need to cancel or amend the
                                    previously issued permits that allowed beef slaughtered in facilities that
                                    slaughter cattle older than 30 months. In the view of the APHIS officials,
                                    it was appropriate to rely on Canada’s assertion that only establishments
                                    that limited slaughter to cattle less than 30 months were eligible to export
                                    to the United States. Effective May 28, 2004, the CFIA issued written
                                    guidance13 to its inspectors, stating “Only establishments that slaughter
                                    only cattle under 30 months of age are eligible to export to the U.S.” In
                                    our opinion, the permit language, which was developed specifically to
                                    allow imports from facilities slaughtering older cattle, could mislead a
                                    Canadian facility or importer to believe that product slaughtered in
                                    violation of the temporary restraining order and subsequent injunction
                                    was eligible for import.

                               •    Allowing the import of edible bovine tongues, hearts, kidneys, and lips.
                                    The Secretary’s August 8, 2003, announcement did not include these
                                    products as low-risk items eligible for import from Canada. On
                                    October 22, 2003, APHIS posted a revised chart of eligible low-risk
                                    Canadian product on the APHIS website. The revised chart included
                                    edible bovine tongues, hearts, kidneys, and lips. In the information

13
 CFIA Meat Hygiene Manual of Procedures, Chapter 11, Export, Annex Z, Conditions Applicable to the Exportation of Ruminant
Meat/Meat Products.
USDA/OIG-A/33601-01-Hy                                                                                                Page 10
                         posted to the web, APHIS did not explain why these products were
                         considered to be low-risk. This represented an additional expansion of
                         the types of products that could be imported from Canada.

                         The APHIS TSE Working Group did not specifically address bovine
                         hearts, kidneys, and lips in June 2003 in the “Canadian Commodities
                         Preliminary Risk Assessment for BSE,” the document that set forth the
                         working group’s conclusions about the risk levels of various products,
                         required risk mitigations, and an evaluation of the current situation.
                         However, the working group reached the conclusion that fresh or frozen
                         bovine tongues were “moderate risk” products, even when the required
                         risk mitigations were in place. Thus, bovine tongues, one of the items
                         posted on the revised chart of eligible low-risk products, had actually
                         been deemed as posing a “moderate risk” by the APHIS TSE working
                         group.

                         We interviewed the Chairperson of the TSE Working Group in
                         December 2004 in an attempt to understand how bovine tongues had been
                         listed as a “low-risk” product on the APHIS web site, when the TSE
                         Working Group had deemed bovine tongues to pose a moderate risk, even
                         when specified risk mitigation measures, such as removal of the tonsils,
                         were in place. The Chairperson explained that the listing was not
                         intended to be authoritative and was based on the TSE Working Group’s
                         understanding of the issue in June 2003. Further, the Chairperson
                         explained that bovine tongues had been listed separately because different
                         members of the scientific community had differing opinions about the
                         risk level. According to the Chairperson, there were many discussions of
                         this issue, both in the APHIS chain of command and with colleagues in
                         FSIS. The discussions included the APHIS Deputy Administrator and the
                         Administrator, who made the final decision to list bovine tongues as
                         “low-risk” and allow their entry into the United States.

                         When we interviewed the former APHIS Administrator, he explained
                         that, in his opinion, edible bovine tongues, hearts, kidneys, and lips could
                         have been listed as part of the Secretary’s original announcement.
                         However, the products were not listed, because APHIS did not initially
                         anticipate the demand for these products.             The current APHIS
                         Administrator, who was the Deputy Administrator at the time of the
                         decision to allow the import of bovine tongues, hearts, kidneys and lips,
                         stated that the decision was made after careful consideration of all risks,
                         although this risk assessment may not have been documented. According
                         to data maintained by FSIS, over 1.5 million pounds of this type of
                         product entered U.S. commerce from September 1, 2003 to
                         April 30, 2004.



USDA/OIG-A/33601-01-Hy                                                                      Page 11
                         In an interview in February 2005, the Chairperson of the TSE Working
                         Group explained that she agreed with the decision to add bovine tongues
                         to the list of “low-risk” products published on October 22, 2003, although
                         her agreement was not documented. She explained the decision to add
                         tongues to the “low-risk” list was consistent with APHIS’ “Risk Analysis:
                         BSE Risk from Importation of Designated Ruminants and Ruminant
                         Products from Canada into the United States.” This risk analysis was
                         made available to the public in November 2003, when APHIS issued the
                         proposed rule “BSE; Minimal-Risk Regions and Importation of
                         Commodities.” The risk analysis noted that tongues are low-risk
                         products; however, they may be contaminated with adjacent tonsils, a
                         specified risk material that is prohibited from use in human food. The
                         risk analysis categorized tongues as eligible product when Canadian
                         inspection officials verify the risk mitigation, which is that tonsils are
                         removed. The 26 bovine tongue permits that we reviewed required CFIA
                         to certify, “the tonsils and retropharyngeal lymph nodes were removed.”

                   •     Allowing the import of bone-in beef product. On November 25, 2003,
                         APHIS allowed Canadian facilities that receive and process bone-in beef
                         product from the United States, New Zealand, or Australia to export
                         bone-in beef product to the United States. However, APHIS did not
                         announce or otherwise publicize this change or provide any
                         documentation to explain why these products were considered low-risk.
                         According to data maintained by FSIS, over 3,000 pounds of bone-in
                         product entered U.S. commerce from December 1, 2003 to
                         January 21, 2004.

                         In an additional expansion of the types of items for which APHIS would
                         issue import permits, on April 19, 2004, the agency announced that beef
                         products eligible for import into the United States included bone-in,
                         boneless, ground meat, and further processed beef products. According
                         to data maintained by FSIS, over 139,000 pounds of bone-in product
                         entered U.S. commerce from April 19, 2004 to April 30, 2004. This
                         announcement, in part, lead to the preliminary injunction filed on
                         May 5, 2004, imposed by the U.S. District Court in Montana.

                   In summary, from August 2003 to April 2004, APHIS allowed the expansion
                   of the types of Canadian beef products approved for import into the United
                   States. During this period, APHIS also allowed expansions of the types of
                   Canadian facilities approved to produce items for export to the United States.
                   APHIS did not believe the Secretary’s August 2003 announcement to issue
                   permits for low-risk products limited its discretion in determining additional
                   products that could be allowed for import. Decision memoranda signed by
                   the Administrator noted that enacting a change in policy without opportunity
                   for public comment constituted a “disadvantage” of APHIS’ decision to
                   expand the types of product eligible for import. The agency also did not have
USDA/OIG-A/33601-01-Hy                                                                     Page 12
                   a review structure or other monitoring process in place to identify
                   discrepancies between publicly stated policy and agency practice.

Recommendation No. 1

                   Develop and implement procedures for communicating changes in policy to
                   all interested parties, including importers, the U.S. Congress, and the public.

                   Agency Response.

                   APHIS agrees with this recommendation and will work to ensure that all
                   import policy changes are immediately posted on the web site and efficiently
                   distributed.

                   Several mechanisms are currently in place for communicating policy changes
                   to interested parties, including importers, Congress, and the public. First,
                   APHIS posts “Dear Importer” letters on its web page to notify interested
                   parties, including importers and the public, of changes to import policy.
                   Moreover, APHIS provides copies of these letters to APHIS’ Plant Protection
                   and Quarantine’s (PPQ) Veterinary Regulatory Services (VRS) staff. The
                   VRS staff modifies those documents into “Alerts” which they forward to
                   their port personnel and DHS’ Customs and Border Protection personnel.
                   Port personnel provide copies of APHIS information (PPQ and DHS Alerts)
                   to brokers, importers, exporters, agents, and other interested parties.

                   APHIS, Veterinary Services’ (VS) Regional Directors also provide
                   information on import policy changes to each Area Veterinarian in Charge
                   (AVIC). Each AVIC forwards this information to VS field personnel and
                   border and port personnel in their area. APHIS also provides the information
                   to any interested party who contacts the office and requests information
                   regarding import changes. Additionally, National Center for Import-Export
                   (NCIE) personnel provide frequent policy updates to FSIS colleagues through
                   e-mail and facsimile transmissions. Finally, VS personnel work with their
                   colleagues in APHIS’ Legislative and Public Affairs staff to ensure that
                   Congress is aware of import policy changes.

                   APHIS recognizes that it did not timely post all updates during the
                   immensely busy period following the August 8, 2003, announcement. The
                   Agency will continue to move information through the established channels
                   described above and work to identify new and more efficient ways to ensure
                   all interested parties receive all necessary information regarding changes in
                   import policy. As we determine specific improvements regarding the internal
                   communication channels we can use to ensure all web-based notifications are
                   posted in a timely fashion, we will document and implement those
                   procedures. We anticipate refined procedures will be in place by the end of
                   March 2005.
USDA/OIG-A/33601-01-Hy                                                                   Page 13
                   OIG Position.

                   We accept APHIS’ management decision. However, we noted that the
                   response does not directly address the situation described in this report,
                   which was a conscious decision by the Administrator not to publicly
                   announce certain changes in policy. For final action, APHIS needs to
                   provide the Office of the Chief Financial Officer (OCFO) the refined
                   procedures to include details of how the agency will ensure retention of the
                   emails and faxes used to provide policy updates to FSIS.

Recommendation No. 2

                   Develop and implement procedures to monitor APHIS actions with regard to
                   permit issuance and to confirm that agency practice is consistent with
                   publicly stated policy.

                   Agency Response.

                   APHIS agrees with this recommendation and has taken action to implement
                   changes in addition to existing procedures. VS maintains standard operating
                   procedures (SOPs) and standardized permit language for drafting permits to
                   ensure consistency. We provide all permitting staff with a copy of the SOP
                   manual and train staff accordingly. The permitting staff holds frequent
                   meetings where experts discuss and establish procedures for any emerging
                   issues concerning importation of animal origin material (i.e., Organisms and
                   Vectors, By-products and or meat products). While these mechanisms have
                   been successful in the past, our systems were clearly strained under the
                   unprecedented volume of permit requests after the Secretary’s announcement.

                   NCIE is developing a refined tracking system and enacting protocols to
                   ensure that the NCIE Import Animal Products Team leaders and the NCIE
                   Director will update the database whenever changes are made to policies,
                   product certifications statements, and permit guidelines.

                   We expect to revise the tracking system, including adding a new mail-in
                   database to document policy changes, product certifications, and permit
                   guidelines, by the end of February 2005. Also, we will add a NCIE
                   Quickplace site, so staff can communicate about all changes; we expect the
                   new server for this site to be in place by March 2005.

                   OIG Position.

                   We accept APHIS’ management decision. For final action, APHIS needs to
                   provide OCFO with documentation with how the tracking system was revised
                   and with evidence that the new server has been put in place.
USDA/OIG-A/33601-01-Hy                                                                 Page 14
Section 2. Import of Questionable Product


Finding 2                          APHIS Allowed Beef Cheek Meat With Questionable Eligibility to
                                   be Imported as Boneless Beef

                                   APHIS issued permits to allow the import of products with questionable
                                   eligibility because the agency did not establish a clear working definition for
                                   the general term “boneless beef.” Instead of coordinating with FSIS, APHIS
                                   reviewers relied upon their own understanding of the term. Some APHIS
                                   reviewers considered the term “boneless beef” broadly, to mean any bovine
                                   meat that did not contain a bone. Thus, some applicants who requested
                                   permits to import beef cheek meat and other products received permits
                                   allowing the import of “boneless beef or boneless beef trim.” As a result,
                                   over 63,000 pounds of beef cheek meat with questionable eligibility entered
                                   U.S. commerce from Canada. As of the date of this report, beef cheek meat
                                   is not eligible for import from Canada.

                                   The following illustrates how APHIS issued permits to import beef cheek
                                   meat, a product deemed ineligible for most of the time period covered by this
                                   report. In November 2003, a California meat company applied for a permit
                                   to import boxed beef, top sirloins, flapmeat, inside skirts, inside rounds,
                                   tongues, beef tonguetips, beef cheek meat, beef lips, and other items. The
                                   firm planned to import an estimated 390 tons of product annually. Instead of
                                   preparing separate permits for the various items requested and advising the
                                   importer that beef cheek meat was not eligible for import, APHIS issued the
                                   importer a permit with the language “as requested in your application you are
                                   authorized to import or transport the following materials – Boneless Beef or
                                   Boneless Beef Trim.” Thus, neither the importer nor the Canadian shipper
                                   was on notice that the beef cheek meat was ineligible to enter the United
                                   States.

                                   The Harvard risk assessment,14 dated November 26, 2001, identifies the
                                   potential for contamination of cheek meat by brain or other tissues when the
                                   head is split and from the use of captive bolt stunning that uses air injection.
                                   The Update of the Opinion on TSE Infectivity Distribution in Ruminant
                                   Tissues, adopted by the Scientific Steering Committee of the European
                                   Commission, Health and Consumer Directorate-General cautions, “cheek
                                   meat of animals certified safe for human consumption…does not pose a risk
                                   if a wide range of precautions to avoid cross-contamination is taken. The
                                   feasibility of implementation of the precautions under field conditions may
                                   however be questioned and in any case require to be previously verified.”15
                                   An FSIS message to import inspection personnel, dated October 7, 2003,

14
     USDA commissioned this assessment for a comprehensive investigation of BSE risk in the United States.
15
     Adopted at the Scientific Steering Committee meeting of 10-11 January 2002 and amended at its meeting of 7-8 November 2002.
USDA/OIG-A/33601-01-Hy                                                                                                     Page 15
                                 states, in part, “Head meat and cheek meat, which must be declared as such
                                 on the label, are restricted by APHIS and thus, are not eligible.” According
                                 to FSIS data, over 21,000 pounds of cheek meat entered the U.S. between
                                 September 1, 2003 and April 30, 2004.

                                 As part of our review at FSIS’ import reinspection houses, we identified over
                                 42,000 pounds of beef cheek meat that entered the United States between
                                 May 19, 2004 and June 9, 2004. Information noted on the health certificates
                                 clearly identified the product as beef cheeks even though the import permit
                                 called the product “boneless beef.” The same exporter and same importer
                                 were involved with all 3 shipments of the more than 42,000 pounds of beef
                                 cheeks. Based on a review of the documentation available at the import
                                 house, the three shipments were among those noted as “skipped” by FSIS.16

                                 Although FSIS procedures generally call for a review of the shipping
                                 documentation for all shipments, to include a review for consistency between
                                 the health certificate and other shipping records, there was no indication in
                                 the records that FSIS inspectors had noted the inconsistencies in
                                 documentation for two of the three shipments. While each of the three
                                 shipments was shown to be “beef cheeks” on the health certificate, FSIS had
                                 coded the three shipments differently in its automated import information
                                 system. The three Import Inspection reports referred to the product variously
                                 as “beef wholesale trim,” “beef trim cheek meat” and “beef wholesale cuts.”

                                 One shipment of beef cheeks imported into the United States on June 1, 2004,
                                 was noted to be released based on a June 1, 2004 conversation at 9:00 pm
                                 with the Director of FSIS’ Import Inspection Division. No explanation was
                                 documented on the FSIS inspection report to show why the shipment was
                                 released. An email sent by the Director of the FSIS Import Inspection
                                 Division, subsequent to the phone call, stated in part “… beef cheek meat
                                 from Canada is permitted under the current permitted products from Canada
                                 (assuming it has an APHIS permit issued), since cheek meat is considered
                                 skeletal muscle.” In our opinion, the FSIS Director’s conclusion was
                                 incorrect, in part because the decision did not incorporate the clarifying
                                 information issued, as supplemental guidance, by the FSIS Import Inspection
                                 Division. However, FSIS officials did not consider the supplemental
                                 guidance issued October 7, 2003, to be in effect and asserted the beef cheeks
                                 were eligible for import. Two FSIS import inspectors we interviewed
                                 advised us that beef cheeks had been “going back and forth” regarding
                                 eligibility.

                                 As shown by the previous example, FSIS did not always communicate
                                 effectively with its managers and import inspectors about the eligibility status

16
  FSIS examines paperwork on all shipments arriving for reinspection and performs a physical reinspection of imported product on a
sample basis, so some shipments are not physically inspected prior to release by FSIS.
USDA/OIG-A/33601-01-Hy                                                                                                      Page 16
                   of beef cheek meat. FSIS distributed information to its import inspectors by
                   way of a series of numbered memoranda, titled Part 4, Canada, BSE
                   Restrictions, Revision 2 through Revision 11. Some of the issuances were
                   supplemented by additional guidance, in the form of supplemental
                   memoranda. However, in our opinion, FSIS managers did not ensure
                   consistent interpretation of the provisions of the various memoranda, a task
                   that was made more difficult by the changing instructions provided by
                   APHIS to FSIS.           According to the FSIS Acting Deputy Assistant
                   Administrator, each numbered Revision cancelled and replaced the previous
                   Revision. Thus, in his opinion, if the Revision in force at a particular time
                   did not specifically mention a particular product, then import inspectors were
                   to interpret this as allowing the product to be imported. However, in contrast
                   to the explanation provided by the FSIS manager, documentation showed that
                   numbered Revisions were sometimes clarified by supplemental guidance that
                   enumerated products that were specifically ineligible, but not mentioned in
                   the numbered Revision memorandum itself.               For example, in the
                   memorandum dated August 27, 2003, “Revision 2,” FSIS advised agency
                   import inspectors that boneless bovine meat was an eligible low-risk
                   Canadian ruminant product. The memorandum did not specifically mention
                   head and cheek meat. However, supplemental guidance to Revision 2, dated
                   October 7, 2003, clarified that “Head and cheek meat, which must be
                   declared as such on the label, are restricted by APHIS and thus, are not
                   eligible.”

                   FSIS management advised us that the agency did not consider the more than
                   42,000 pounds of beef cheeks that we identified as imported between
                   May 19, 2004 and June 9, 2004, to be ineligible. According to the FSIS
                   Acting Deputy Assistant Administrator, the April 26, 2004, temporary
                   restraining order prohibited APHIS from issuing import permits for products
                   other than those included as part of the August 15, 2003, list. That is, the
                   restraining order had the effect of limiting the list of eligible products to those
                   contained in the August 27, 2003, FSIS Import Notice. We noted that the
                   products listed in the April 27, 2004, Revision 7 memorandum are the same
                   as those listed in the August 27, 2003, Revision 2 memorandum; the wording
                   of the entry for boneless bovine meat is identical. However, because cheek
                   meat was not specifically mentioned in Revision 7, cheek meat was
                   considered to be eligible for import by the FSIS manager we interviewed. In
                   our opinion, this conclusion is inconsistent with FSIS’ earlier guidance to its
                   import inspectors that clarified Revision 2 to state, “head and cheek meat,
                   which must be declared as such on the label, are restricted by APHIS and
                   thus, are not eligible.” We believe that since FSIS intended Revision 7 to
                   mirror the listing of eligible products in Revision 2, and since Revision 2 did
                   not allow head and cheek meat (per Supplemental Guidance #2), in our
                   opinion, head and cheek meat were not allowed by Revision 7 and the 42,000
                   pounds that were subsequently imported had questionable eligibility.
                   However, FSIS officials did not consider the supplemental guidance issued
USDA/OIG-A/33601-01-Hy                                                                       Page 17
                                October 7, 2003, to be part of Revision 7 and asserted the beef cheeks were
                                eligible for import at the time they were imported.

                                In January 2005, FSIS assessed the shipments of beef check meat and
                                concluded, “FSIS has no reason to believe that these four shipments17 of beef
                                cheek meat are injurious to health.” In its assessment, FSIS explained that in
                                January 2004, the agency implemented interim final rules that prohibited the
                                use of specified risk materials for human food. This rule instituted
                                requirements for the removal, segregation, and disposition of the specified
                                risk material. On the matter of beef cheek meat, the FSIS rule maintained
                                that beef cheeks are not part of the skull, which is a specified risk material.
                                The FSIS rule continued to allow the use of beef cheek meat for human food,
                                provided that the meat is not contaminated with specified risk materials.
                                FSIS further supported its conclusion on the basis that Canada had a
                                pre-existing equivalent specified risk material system in place18 and that FSIS
                                has judged the Canadian meat inspection system to be equivalent to the U.S.
                                meat inspection system for many years. An FSIS review performed in
                                December 2004 found no deficiencies in the Canadian system related to BSE
                                controls. The BSE controls tested by FSIS personnel included such controls
                                as whether the Canadian establishment routinely evaluated the effectiveness
                                of their procedures for the removal, segregation, and disposition of specified
                                risk material and whether the CFIA veterinarian took appropriate action when
                                noncompliance was found regarding controls over specified risk materials.
                                FSIS personnel also tested whether the CFIA veterinarian verified that
                                captive bolt stunners were not used to stun cattle.

                                We requested the Director of the FSIS Import Inspection Division to provide
                                any additional information on the issue of beef cheeks that FSIS had received
                                from APHIS. None of the information provided by FSIS or APHIS
                                supported the position that APHIS had concluded that beef cheeks would be
                                eligible for import. FSIS considered that beef cheeks would be eligible
                                because beef cheeks are considered boneless beef according to FSIS’
                                technical definition of this term. However, as described above, APHIS did
                                not use FSIS’ definition of boneless beef. As of February 14, 2005, beef
                                cheeks are not eligible for import from Canada.

                                Further, in an August 18, 2004 interview, the APHIS National Incident
                                Commander for BSE Enhanced Surveillance confirmed that further
                                discussion was still required with respect to the import of head and cheek
                                meat and that no new scientific information on this topic had been considered
                                by APHIS.



17
   The four shipments included one shipment identified by FSIS that entered U.S. commerce in April 2004 and three shipments that we
identified that entered U.S. commerce in May and June 2004.
18
   Canada’s policy on specified risk materials became effective July 2003.
USDA/OIG-A/33601-01-Hy                                                                                                     Page 18
                   FSIS officials explained that import inspectors assume all products presented
                   for reinspection are eligible unless they receive direction from FSIS
                   management or the import information system that certain product is not
                   eligible. Regarding beef products from Canada, FSIS officials explained they
                   were trying to timely communicate the complex matter of which products
                   were eligible in a frequently changing environment. FSIS officials advised
                   that the Import Inspection Division’s established controls are generally
                   effective for rapidly notifying import inspectors of new or changed policy in
                   a constant environment. However, they agreed the controls should be
                   strengthened to better communicate the eligibility of product that frequently
                   changed eligibility status, as beef cheeks did between August 2003 and
                   July 2004. We believe that the communication about product with frequently
                   changing eligibility should specify whether or not the product is eligible to be
                   imported into the United States. As an additional safeguard, FSIS should
                   establish an edit check in the agency’s automated system to flag ineligible
                   product when it is presented for entry into the United States.

                   APHIS issued permits that allowed the importation of 63,000 pounds of beef
                   cheek meat with questionable eligibility because the agency did not establish
                   a clear working definition for the general term “boneless beef.” APHIS
                   needs to immediately cancel all permits that allow beef cheek meat to be
                   imported. FSIS should implement controls to communicate to import
                   inspectors the specific eligibility of product when its eligibility status
                   changes. FSIS should also establish an edit check in its import information
                   system to flag ineligible product presented for entry.

Recommendation No. 3

                   Immediately cancel all permits that allow the importation of beef cheek meat.

                   Agency Response.

                   To address this recommendation, APHIS will immediately notify by letter
                   holders of permits for “boneless beef” that such permits do not allow the
                   importation of cheek meat.

                   OIG Position.

                   We cannot accept APHIS’ management decision. The actions taken by
                   APHIS are a good first step, but the actions are not sufficient to prevent beef
                   cheek meat from being imported into the United States. APHIS needs to
                   notify FSIS and DHS’ CBP that permit holders are not allowed to import this
                   product. APHIS also needs to develop a plan to address the outstanding
                   permits that could allow the importation of beef cheek meat.



USDA/OIG-A/33601-01-Hy                                                                    Page 19
Recommendation No. 4

                   FSIS should implement controls to communicate the specific eligibility of
                   product when its eligibility status changes.

                   Agency Response.

                   FSIS agrees with this recommendation and will implement controls to
                   communicate the specific eligibility of product when the eligibility status
                   changes. FSIS will complete the review and update of the controls by
                   July 2005.

                   OIG Position.

                   We accept FSIS’ management decision. For final action, FSIS needs to
                   provide OCFO with the documentation that implements the agreed upon
                   controls.

Recommendation No. 5

                   FSIS should implement an edit check in its import information system to
                   identify ineligible product presented for entry into the United States.

                   Agency Response.

                   FSIS currently performs quarterly verification of its import information
                   system while monitoring and overseeing the system and import inspection
                   program performance. In addition, the import inspection system has a limited
                   set of edit checks that are presently incorporated in its current configuration.
                   FSIS will enhance this feature of the system by reprogramming the
                   Automated Import Information System (AIIS) to include drop-down menus
                   containing a specific set of eligible products. The reprogrammed system will
                   eliminate product description from being entered into a text field and thereby
                   mitigate or restrict the possibility of ineligible product being entered in the
                   system.

                   FSIS expects to complete the AIIS reprogramming by January 2006.

                   OIG Position.

                   We accept FSIS’ management decision. For final action, FSIS needs to
                   provide OCFO with documentation to support that AIIS has been
                   reprogrammed to include drop-down menus containing a specific set of
                   eligible products.



USDA/OIG-A/33601-01-Hy                                                                    Page 20
Section 3. Controls Over the Permit Process


Finding 3                        APHIS Did Not Establish Adequate Controls to Manage the
                                 Permit Process

                                 APHIS issued 1,155 permits for the importation of ruminant products from
                                 Canada without ensuring that the agency had an appropriate system of
                                 internal controls to manage the process. These permits were issued from
                                 August 20, 2003 to September 16, 2004. Due to the serious impact on trade,
                                 USDA officials sought a method to allow limited imports from Canada and
                                 determined to use the APHIS permit process as a vehicle to facilitate trade.
                                 The APHIS permit system was originally designed to allow for the import of
                                 research quantities (generally small amounts) of material into the United
                                 States. The procedures that APHIS had developed for handling permit
                                 requests for small amounts of product were not adequate to deal with the high
                                 volume of requests for large quantities of commercial use beef. The agency
                                 did not implement or finalize standard operating procedures for processing
                                 the large volume of permits. APHIS also did not implement requirements to
                                 perform onsite monitoring of permit holders, Canadian facilities, or
                                 inspection personnel19 at U.S. ports of entry. As a result, there was reduced
                                 assurance that Canadian beef entering the United States was low-risk, and
                                 some product with questionable eligibility, as described in an earlier finding,
                                 entered U.S. commerce.

                                 Departmental regulation20 holds agency program managers responsible for
                                 the integrity and quality of program performance. To achieve this, an agency
                                 should establish policies and procedures to reasonably ensure that programs
                                 achieve their intended results and that reliable information is obtained,
                                 maintained, reported, and used for decision making.

                                 On May 20, 2003, the Secretary halted imports of live cattle and other
                                 ruminants from Canada after a cow in Alberta was found to have BSE. At
                                 that time, APHIS did not have a history of issuing permits for the importation
                                 of edible meat and meat products. Veterinary import permits were generally
                                 issued for items derived from animals, such as blood, cells or cell lines,
                                 hormones, and microorganisms including bacteria, viruses, protozoa, and
                                 fungi.

                                 APHIS officials acknowledged that the agency did not have the best possible
                                 processes in place to handle the volume of permit requests that ensued after
                                 the August 8, 2003, announcement that certain products could enter from

19
   The inspection personnel include agriculture inspectors with the U.S. Customs and Border Patrol and import inspectors with the Food
Safety and Inspection Service.
20
   Departmental Regulation No. 1110-2, Management Accountability and Controls, February 23, 1999
USDA/OIG-A/33601-01-Hy                                                                                                       Page 21
                                    Canada with a permit. Agency officials tried to adapt the permit system,
                                    which in the past had handled approximately 400 requests annually for
                                    research quantities of products, to handle a greater number of large
                                    commercial product requests. Given USDA’s goal of beginning to issue
                                    permits by the end of August 2003 and not knowing the volume of requests
                                    that might arrive, APHIS officials believed that they did not have time to
                                    carefully design a better system. APHIS issued 1,155 permits in a little more
                                    than one year following the August 2003 announcement, and the processes
                                    designed to deal with a much lower volume proved inadequate to ensure the
                                    desired level of compliance.

                                    Representatives of the Office of the General Counsel (OGC) told us that the
                                    APHIS Administrator had existing regulatory authority21 to implement a
                                    permit process allowing low-risk ruminant products to be imported from
                                    Canada. However, OGC also told us that they advised APHIS to issue
                                    permits on an exception basis rather than as a general practice. The Secretary
                                    of Agriculture announced on August 8, 2003, that USDA would accept
                                    applications for permits to import certain beef products from Canada.

                                    APHIS officials developed undated draft documentation that purported to
                                    describe the agency’s controls for issuing and monitoring permits for
                                    commercial quantities of ruminant products. Our analysis of this draft
                                    documentation disclosed that it did not implement an appropriate system of
                                    controls to manage the process. We found that the draft documentation did
                                    not address such control areas as: (1) ensuring the permit contains an
                                    accurate description of permitted products, (2) notifying applicants when
                                    requested items are not approved for import, (3) canceling permits issued in
                                    error, (4) consistently applying risk mitigation measures, and (5) performing
                                    onsite monitoring of permit holders, Canadian facilities, or inspection
                                    personnel at U.S. ports of entry. We also found that these controls were not
                                    finalized during the period of our review.

                                    We analyzed the 1,155 import permits to identify permits issued for ineligible
                                    product, to determine whether risk mitigation measures were consistently
                                    applied or amended, and to determine whether permits were appropriately
                                    cancelled following the preliminary injunction filed on May 5, 2004. Finally,
                                    we visited four FSIS import reinspection houses and two ports of entry to
                                    understand how the requirements to import ruminant products from Canada
                                    were implemented. At these locations, we reviewed the shipping documents
                                    for 12,427 shipments of imported product, which generally included the
                                    Canadian health certificate, the APHIS permit, and FSIS reinspection
                                    documentation. The four FSIS import reinspection houses we reviewed
                                    reinspected over 80 percent of the Canadian product presented for entry into
                                    the United States between September 2003 and September 2004.

21
     9 C.F.R. § 93.401(a), January 1, 2003
USDA/OIG-A/33601-01-Hy                                                                                   Page 22
                   We identified five major areas where APHIS management controls were not
                   adequate to ensure that the permit process operated effectively.

                   •     Ensuring accurate description of permitted products. APHIS officials did
                         not establish controls to ensure that permits accurately described the
                         material to be imported based on the permit holder’s application. For
                         example, we reviewed the permits and supporting applications for
                         300 “boneless beef” permits issued from August 2003 through
                         April 2004. Permits for the import of “boneless beef and boneless beef
                         trim” were issued when applicants requested diverse items such as
                         “boneless beef,” “beef and beef by-products” and “boneless scalded beef
                         scalps.”

                   •     Notifying applicants when requested items are not approved for import.
                         APHIS did not have a policy or practice to notify applicants when APHIS
                         did not approve products the applicant requested to import. In one
                         instance, an applicant requested 48 different items, to include ground
                         beef, spiced beef salami, and bulk meat loaf paprikash. Nevertheless, the
                         applicant was issued a permit stating, “As requested in your application,
                         you are authorized to import…boneless beef or boneless beef trim.”
                         There was no mention of the various processed items the applicant had
                         requested.

                   •     Canceling permits issued in error. Because APHIS did not use consistent
                         terminology in the issuance of permits, the agency was not able to ensure
                         that permits were appropriately cancelled in response to the temporary
                         restraining order issued on April 26, 2004, and the subsequent
                         preliminary injunction filed on May 5, 2004. APHIS issued 50 permits
                         that allowed edible bovine tongues, hearts, kidneys, and lips to enter or
                         transit the United States. The preliminary injunction required that these
                         permits be cancelled. APHIS used an automated “word search” feature to
                         attempt to identify permits that should be cancelled pursuant to the
                         judge’s order. However, the items for which the reviewers searched were
                         described in a variety of ways and a search for “beef lips” would not
                         necessarily return “beef-lips,” “headmeat/lips” or “bovine lips.” Thus,
                         some permits that should have been cancelled were not. Through our
                         review, we identified 11 permits for edible bovine tongues, hearts,
                         kidneys, and lips that were not cancelled following the preliminary
                         injunction. We also identified four that were not amended to remove
                         these products from permits for product transiting the United States.
                         Although we did not identify any instances where the permits were used
                         to import ineligible product after the date of the preliminary injunction,
                         APHIS failure to cancel or amend the permits represents a serious
                         weakness in internal control.

USDA/OIG-A/33601-01-Hy                                                                     Page 23
                                 •    Consistently Applying Risk Mitigation Measures. APHIS officials did
                                      not establish controls to ensure that risk mitigation measures were applied
                                      consistently. For example, APHIS officials established the general policy
                                      that the risk mitigation measures for importing fresh or frozen bovine
                                      liver would include provisions that: (1) the material only be pure bovine
                                      liver, (2) the cattle from which the liver was obtained were not
                                      slaughtered at a facility that uses air-injection stunning, and (3) the livers
                                      be from animals slaughtered after August 8, 2003.22 APHIS issued
                                      83 permits for bovine liver from August 2003 to March 2004. Our
                                      review of these permits disclosed that APHIS did not consistently ensure
                                      that permits included all required risk mitigation measures. For example,
                                      we identified that 8 of the 83 permits for bovine liver did not include the
                                      requirement that the livers be from animals slaughtered after
                                      August 8, 2003. Without this mitigation measure, there is reduced
                                      assurance that Canadian bovine liver entering the United States was
                                      low-risk. According to data maintained by FSIS, almost 4.9 million
                                      pounds of bovine liver was imported into the United States from
                                      September 1, 2003 to April 30, 2004. Our audit also disclosed additional
                                      permits that lacked required mitigations to include boneless beef permits
                                      and processed product permits.

                                 •    Onsite Monitoring. We found that APHIS performed no onsite
                                      validations to assess whether permit holders, Canadian facilities, or
                                      inspection personnel at U.S. ports of entry properly implemented APHIS
                                      restrictions. The inspection personnel at U.S. ports of entry include
                                      agriculture inspectors with U.S. Customs and Border Protection (CBP)
                                      and import inspectors with Food Safety and Inspection Service (FSIS).

                                      APHIS officials recognized the economic impact of closing the border in
                                      May 2003 to trade in ruminant products as well as the importance of
                                      restoring trade without a risk to food safety or public health.
                                      Accordingly, APHIS worked with Canadian food safety officials to
                                      require that Canadian officials certify that agreed-upon risk mitigations,
                                      as listed on the APHIS import permit, were met prior to low-risk
                                      ruminant product being exported to the United States.               These
                                      certifications regarding risk mitigation measures were recorded on an
                                      annex to the Canadian health certificate. These two documents, i.e., the
                                      health certificate and the annex, accompanied each shipment of product
                                      exported to the United States. APHIS required the permit number to be
                                      recorded on these documents so that the product described on the health
                                      certificate could be reconciled with the product described on the permit.
                                      According to APHIS officials, due to their confidence in the Canadian

22
   This is the date the Secretary of Agriculture announced that USDA would begin to accept applications for import permits for certain
low-risk products from Canada. It was important that a “beginning date” for slaughter be established, to ensure that frozen beef liver
from cattle slaughtered before the feed ban had been enacted could not be exported to the United States.
USDA/OIG-A/33601-01-Hy                                                                                                        Page 24
                         inspection system, they did not perform onsite reviews to determine
                         whether APHIS restrictions were adequately implemented in Canada.

                         APHIS relies on CBP and FSIS to ensure product presented for entry is
                         accompanied by required certifications that APHIS restrictions were
                         implemented. In addition, APHIS officials worked with CBP officials to
                         implement extra measures for ensuring that only eligible Canadian
                         product was allowed to enter U.S. commerce. The measures required
                         CBP to verify that each shipment included the Canadian health certificate
                         and annex and the APHIS permit. CBP officials in Detroit, Michigan and
                         Sweetgrass, Montana, informed us that they only released shipments after
                         verifying the required documentation.

                         Once released by CBP, FSIS reinspected the product in accordance with
                         its import inspection requirements. FSIS import inspectors first check the
                         documents to assure the CFIA properly certifies the shipment. Inspection
                         may be delayed or refused if the documents contain irregularities or
                         errors. Inspectors next examine each shipment for general condition and
                         labeling and then conduct the inspection assignments. Reinspection of
                         products is done on a sample basis, and is intended to be performance
                         based, in that better performing foreign establishments have their
                         products reinspected less frequently. Reinspection tasks include product
                         examination, in which an inspector examines all sample units for defects,
                         such as blood clots, bruises, and bone fragments. During the product
                         examination, the inspector verifies the accuracy of the label; for example,
                         he determines whether or not a product labeled “boneless beef” is actually
                         boneless beef and not some other product.

                         During the course of our review at the four FSIS Inspection Houses, we
                         did not identify any ineligible Canadian product that entered the United
                         States, other than the beef cheeks with questionable eligibility that are
                         described in Finding No. 2.

                   APHIS needs to strengthen its controls and finalize its procedures dealing
                   with permits issued for commercial quantities of products. Procedures need
                   to be implemented to ensure that consistent terminology is used to identify
                   the type of product to be imported. This may require coordination with other
                   USDA agencies. The procedures to be established should ensure that:
                   (1) applicants are notified of the reasons APHIS removes or revises material
                   requested, (2) permits are timely cancelled or amended as necessary, and
                   (3) the correct risk mitigation measures are consistently included on the
                   permits. APHIS should perform onsite reviews of permit holders, foreign
                   facilities, and inspection personnel at U.S. ports of entry to confirm that
                   processes are effectively implemented.



USDA/OIG-A/33601-01-Hy                                                                     Page 25
Recommendation No. 6

                   Develop and implement procedures that require consistent terminology to be
                   used when identifying the type of product to be imported.

                   Agency Response.

                   APHIS agrees with this recommendation and will continue efforts underway
                   since the summer of 2004 to ensure that APHIS and FSIS use consistent
                   terminology by May 31, 2005. To do this, APHIS and FSIS will make this
                   issue the top priority on the agenda of the regular weekly conference calls the
                   Agencies staffs conduct. In those cases where FSIS has an established
                   definition in a published regulation, APHIS will adopt that definition if at all
                   possible. In a case where the FSIS definition is not appropriate, APHIS will
                   ensure that both agencies understand the different terminology and will
                   publish an explanation of the difference so the general public can understand
                   the difference and how it might be applied. After May 31, 2005, the agencies
                   will continue to use the weekly conference call to ensure that any new terms
                   or issues involving current terminology are discussed and settled quickly.

                   An example in the report that highlights the need for consistent terminology
                   relates to the OIG questions surrounding the eligibility of beef cheeks that
                   entered the U.S. from Canada. The beef cheeks that entered from Canada
                   from April 21 through June 9, 2004, were in full compliance with the
                   requirements at the time and were eligible for entry. However, differences in
                   terminology made this a difficult situation to sort through and without
                   significant detailed conversations with both Agencies, one could have
                   determined that ineligible product entered due to differences in terminology.
                   This clearly demonstrates the need for better communication between the
                   Agencies as well as the use of consistent terminology.

                   OIG Position.

                   We accept APHIS’ management decision. For final action, APHIS needs to
                   provide OCFO with documentation of the agreement between APHIS and
                   FSIS to use consistent terminology. APHIS needs to also provide a copy of
                   the controls implemented to verify that the agreed upon terminology is used
                   by APHIS personnel.

                   In the response to this recommendation, FSIS continues to assert that the
                   63,000 pounds of beef cheek meat was eligible at the time of import.
                   However, neither FSIS nor APHIS has provided any documentary evidence
                   to support the eligibility of beef cheek meat between April and June 2004.
                   APHIS officials advise that beef cheek meat is not eligible for import from
                   Canada.

USDA/OIG-A/33601-01-Hy                                                                    Page 26
Recommendation No. 7

                   Develop and implement procedures for notifying applicants of APHIS’
                   decision to remove or revise material requested and require this notification
                   to explain the reasons for APHIS decision.

                   Agency Response.

                   APHIS agrees with this recommendation and has begun developing such
                   procedures. APHIS will develop a series of “form” letters personnel can
                   easily use to explain why permits are denied. Using these letters should be an
                   effective means of supporting NCIE’s goal of transparency. APHIS will
                   begin using these new form letters by March 15, 2005.

                   OIG Position.

                   We accept APHIS’ management decision. For final action, APHIS needs to
                   provide OCFO with a copy of the implemented procedures and copies of the
                   form letters used to explain to applicants why permits were denied or why
                   requested material was revised or removed.

Recommendation No. 8

                   Develop and implement procedures to ensure that permits are timely
                   cancelled or amended as necessary. Implement a monitoring process to
                   validate that such actions occur timely and accurately.

                   Agency Response.

                   APHIS agrees with this recommendation and will implement an automated
                   system that can generate specific tracking reports. Although NCIE does have
                   an electronic system for tracking permit requests and permits in the Permit
                   Information Tracking System, the process of identifying permits to be
                   cancelled is cumbersome.

                   APHIS is working to develop a new, sophisticated E-permits system for use
                   Agencywide. We anticipate placing the system in use on January 1, 2006.
                   Because this is an agencywide system and is a very intensive effort, it will
                   take that long to complete it. In the meantime, NCIE is already working with
                   the Information Technology Staff to improve the Permit Information
                   Tracking System. As a result NCIE can now query the system by shipper to
                   identity permits to be cancelled.

                   OIG Position.



USDA/OIG-A/33601-01-Hy                                                                   Page 27
                   We accept APHIS’ management decision. For final action, APHIS needs to
                   provide OCFO with a copy of the interim procedures that were implemented
                   to query the system by shipper to identify permits to be cancelled. APHIS
                   also needs to provide OCFO with a copy of the procedures, once developed
                   and implemented, with the upcoming E-permit system that allow the agency
                   to identify permits that need to be cancelled.

Recommendation No. 9

                   Develop and implement procedures that validate that all required risk
                   mitigation measures are consistently included on the permits.

                   Agency Response.

                   APHIS agrees with this recommendation and has begun taking action to
                   address these points. NCIE will hire additional staff as funding allows to
                   handle in any future situations where such a large number of permits are
                   received in a limited amount of time. The recently published final rule on
                   Minimal Risk Regions will allow the entry of the Canadian products for
                   which APHIS has been issuing permits, so the volume should decrease
                   substantially. Meanwhile the NCIE staff will examine protocols to refine
                   quality control measures and will document and implement these measures
                   by the end of March 2005.

                   Since risk mitigations are linked to products, we note that OIG’s
                   recommendation here is inherently related to the evolving definition of
                   boneless beef. Different products require different mitigations – as such,
                   since the boneless beef encompassed different products as its definition was
                   refined, mitigations from permit to permit reflected this evolution.

                   While APHIS is pleased that only 2 percent of the over 1,000 permits issued
                   after the August 8 announcement contained incorrect or missing mitigations,
                   we understand OIG’s concern and share the desire to correct the problem.
                   APHIS did examine all permits and determined that the missing or incorrect
                   mitigations were not consequential for ensuring safe product. Mitigations
                   missed included issues of documentation, and while these requirements are
                   indeed important within our regulatory framework, NCIE staff did not permit
                   product that was not subjected to the mitigations necessary to deem it safe.

                   OIG Position.

                   Our report does not attempt to quantify the number of permits issued with
                   incorrect or missing mitigations, in part because APHIS had not established
                   definitive policies, which specified what mitigations were required. Thus,
                   APHIS’ assertion that only 2 percent of the permits contained incorrect or
                   missing mitigations is erroneous. Our report provided examples of the types
USDA/OIG-A/33601-01-Hy                                                                 Page 28
                   of missing mitigation and should not be construed as a list of all permits with
                   incorrect or missing mitigations.

                   We accept APHIS’ management decision. For final action, APHIS needs to
                   provide OCFO with a copy of the procedures implemented to validate that all
                   required risk mitigation measures are consistently included on the permits.

Recommendation No. 10

                   Development and implement a monitoring process that includes onsite
                   reviews of permit holders, foreign facilities, and inspection personnel at U.S.
                   ports of entry to confirm that restrictions are adequately implemented.

                   Agency Response.

                   APHIS agrees that we should have a monitoring process that includes onsite
                   reviews of permit holders, foreign facilities, and inspection personnel at U.S.
                   ports of entry. However, we believe that given limited resources the process
                   should provide APHIS with the authority to do the monitoring as deemed
                   necessary given all factors. It is important to note that nearly all permits
                   issued indicate that exporting facilities are always subject to APHIS
                   inspection. Therefore, we often reserve the option for on-site monitoring – in
                   any country or regions – if it becomes necessary. We do not believe it is
                   necessary, nor do we believe it is feasible, to conduct inspections of all
                   permit holders or foreign facilities. The process should focus on permit
                   holders and foreign facilities, which do not have an established record of
                   compliance. For example APHIS enjoys a close and transparent working
                   relationship with Canada. Canadian officials routinely advise VS personnel
                   of issues, investigate issues of concern that we raise, and solve problems that
                   we note. Canada has a veterinary infrastructure that is at least equivalent to
                   our infrastructure. Imposing any measures on Canada that undermine our
                   mutual trust would only harm our efforts to establish equivalency in our
                   trading relationship, thus leading to barriers to U.S. exports. Imposing
                   mandatory and regular monitoring measures on Canada would waste valuable
                   resources.

                   APHIS’ Plant Protection and Quarantine unit is the Agency’s official liaison
                   with the DHS-CBP border inspection personnel. As part of the transfer
                   agreement between USDA and DHS, the two agencies will establish a quality
                   control program to ensure that CBP border inspection personnel are
                   effectively carrying out the agriculture inspection mission. Negotiations to
                   establish the quality control program have been ongoing for several months,
                   but are complicated by the sensitive homeland security issues involved in
                   granting USDA officials access to ports of entry. We expect to finalize the
                   quality control program by July 31, 2005, but must emphasize that this is not
                   totally within APHIS’ ability to effectuate.
USDA/OIG-A/33601-01-Hy                                                                   Page 29
                   OIG Position.

                   We accept APHIS’ management decision. For final action, APHIS needs to
                   provide OCFO with documentation of the monitoring process implemented
                   that includes onsite reviews of permit holders, foreign facilities, and
                   inspection personnel at U.S. ports of entry.




USDA/OIG-A/33601-01-Hy                                                            Page 30
Scope and Methodology
                   We performed our audit at APHIS Headquarters located in Riverdale,
                   Maryland; FSIS import reinspection houses in Buffalo, New York; Detroit
                   Michigan; and Sweetgrass, Montana and ports of entry in Detroit and
                   Sweetgrass.  We performed our audit fieldwork from June through
                   December 2004.

                   We interviewed responsible APHIS and OGC Headquarters officials. We
                   also held discussions with responsible APHIS, OGC, FSIS, and CBP
                   personnel. We held a discussion with CBP Headquarters officials to obtain
                   an understanding of their inspection process.

                   We analyzed the information APHIS disseminated to the public after Canada
                   discovered a BSE-infected cow on May 20, 2003 and the information used to
                   expand the list of eligible ruminant products. We also analyzed the permit
                   process for the importation of ruminant products from Canada implemented
                   after trade was re-established on August 8, 2003. In order to evaluate
                   APHIS’ controls, we analyzed the 1,155 permits issued by APHIS from
                   August 2003 to September 2004 that allowed ruminant products to be
                   imported from Canada. We analyzed this information to determine such
                   things as whether APHIS ensured the permit contained an accurate
                   description of the permitted products, notified applicants when requested
                   items were not approved for import, cancelled permits issued in error, and
                   consistently applied risk mitigation measures.

                   We visited a total of four FSIS import reinspection houses, including two in
                   Sweetgrass, Montana; one in Buffalo, New York; and one in Detroit,
                   Michigan. We selected the locations based on the level of beef products
                   imported from Canada that were presented for FSIS re-inspection. The four
                   facilities we reviewed reinspected more than 646 million of the 802 million
                   pounds of Canadian product presented for entry into the United States
                   between September 2003 and September 2004. At the inspection houses, we
                   interviewed the import inspectors to obtain an understanding of their
                   reinspection process and implementation of APHIS restrictions on Canadian
                   products. We examined the documents accompanying shipments into the
                   United States, to include international health certificates and the associated
                   annexes.

                   At the FSIS import reinspection houses, we reviewed documents for 12,427
                   shipments as part of four different analyses to determine whether any
                   ineligible products entered U.S. commerce. Our first analysis comprised a
                   random selection of at least three shipments per month from September 2003
                   through April 2004. In this sample, we examined data for 98 shipments.
                   Next, we performed a 100 percent review of all shipping documents from
USDA/OIG-A/33601-01-Hy                                                                  Page 31
                   April 19, 2004 through April 26, 2004. This more intensive review was
                   based on the APHIS decision to expand eligible low-risk Canadian product to
                   include bone-in beef products. A temporary restraining order filed by
                   R-CALF cancelled APHIS’ announcement on April 26, 2004. As part of this
                   stage of our review, we examined data for 1,145 shipments. Our third
                   analysis comprised a 100 percent review of all shipping documents from May
                   2004 through September 2004 at the 4 FSIS inspection houses we visited.
                   This analysis was based on the preliminary injunction filed on May 5, 2004,
                   that described the eligible ruminant products from Canada. As part of the
                   third analysis, we examined data for 9,953 shipments. We also analyzed 11
                   shipments reinspected in October 2004 by the 2 FSIS inspection houses in
                   Sweetgrass, Montana when were performing onsite fieldwork. Our third
                   analysis included a total of 9,964 shipments. Our final analysis included a
                   random selection of shipments from September 2003 to October 2003 to
                   determine whether edible bovine tongues, hearts, kidneys, and lips entered
                   U.S. commerce before APHIS announced that these products were eligible.
                   As part of this stage of our review, we examined data for 1,220 shipments.

                   We selected two ports of entry for review based on their proximity to the
                   FSIS import reinspection houses. We interviewed CBP agriculture inspectors
                   at the ports and observed their inspection procedures for implementing
                   APHIS’ restrictions on Canadian products.

                   We conducted the audit in accordance with Government Auditing Standards
                   established by the Comptroller General of the United States.

                   To accomplish our audit objectives, we:

                   •     Reviewed laws, regulations, policies, procedures, and USDA and agency
                         announcements as well as the regulatory functions associated with
                         importing or transporting controlled materials;

                   •     Interviewed responsible APHIS and OGC officials at their Headquarters
                         offices;

                   •     Conducted meetings with responsible APHIS, OGC, and FSIS officials.
                         We conducted a meeting at the CBP Headquarters office to obtain an
                         understanding of their inspection process at the ports of entry;

                   •     Analyzed information used by APHIS to determine eligible ruminant
                         products to be imported from Canada;

                   •     Visited FSIS import reinspection houses in Buffalo, New York; Detroit
                         Michigan; and Sweetgrass, Montana to review shipping documents
                         accompanying ruminant products imported from Canada; and

USDA/OIG-A/33601-01-Hy                                                                Page 32
                   •     Visited ports of entry to interview responsible CBP agriculture inspectors
                         and observe procedures for allowing ruminant products imported from
                         Canada.




USDA/OIG-A/33601-01-Hy                                                                     Page 33
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 6




USDA/OIG-A/33601-01-Hy                     Page 34
                                                                                              Page 2 of 6



                         Animal and Plant Health Inspection Service (APHIS)
                             Food Safety and Inspection Service (FSIS)

                     Response to Office of the Inspector General (OIG) report:
   Animal and Plant Health Inspection Service Oversight of the Importation of Beef Products from
                                Canada, Report No. 33601-01-Hy


General Comments

The Food Safety and Inspection Service (FSIS) has reviewed the report. We will further strengthen
controls for communicating to import inspectors the specific eligibility of product when the eligibility
status changes. In addition, FSIS will include an edit check function in the automated import
information system.

Second, the OIG report notes that the Harvard risk assessment stated that beef cheek meat presents a
higher risk when heads are split during slaughter or air injection stunning is employed. It is important
to note that this statement, which is in the Harvard risk assessment, was simply a statement taken from
the EU Scientific Steering Committee (SSC) updated opinion on TSE infectivity distribution in
ruminant tissues (http://europa.eu.int/comm/food/fs/sc/ssc/out296_en.pdf). The Harvard risk
assessment did not quantitatively evaluate the human health risk associated with beef cheek meat.
There is only a small risk (based on qualitative assessment by experts) if the beef cheek meat is cross-
contaminated with specified risk materials. This, as the EU points out, would likely occur when heads
are split or air-injection stunning is used. This is unlikely the case for beef cheek meat from Canada
since that country does not split heads or use air-injection stunning. Canada also has further
requirements to prevent cross-contamination during dressing and salvage equivalent to those in the
U.S. interim final rules that were published on January 12, 2004. FSIS does not consider cheek meat
produced under the equivalent system from Canada to be a threat to human health.

Responses to Recommendations

Recommendation No. 1

Develop and implement procedure for communicating changes in policy to all interested parties,
including importers, the U.S. Congress and the public:

APHIS agrees with this recommendation and will work to ensure that all import policy changes are
immediately posted on the web site and efficiently distributed.

Several mechanisms are currently in place for communicating policy changes to interested parties,
including importers, Congress, and the public. First, APHIS posts “Dear Importer” letters on its web
page to notify interested parties, including importers and the public, of changes to import policy.
Moreover, APHIS provides copies of these letters to APHIS’ Plant Protection and Quarantine’s
Veterinary Regulatory Services (VRS) staff. The VRS staff modifies those documents into “Alerts”
which they forward to their port personnel and DHS’ Customs and Border Protection personnel. Port
USDA/OIG-A/33601-01-Hy                                                                           Page 35
                                                                                            Page 3 of 6

personnel provide copies of APHIS information (PPQ and DHS Alerts) to brokers, importers,
exporters, agents, and other interested parties.

APHIS, Veterinary Services’ (VS) Regional Directors also provide information on import policy
changes to each Area Veterinarian in Charge (AVIC). Each AVIC forwards this information to VS
field personnel and border and port personnel in their area. APHIS also provides the information to
any interested party who contacts the office and requests information regarding import changes.
Additionally, National Center for Import-Export (NCIE) personnel provide frequent policy updates to
Food Safety and Inspection Service (FSIS) colleagues through e-mail and facsimile transmissions.
Finally, VS personnel work with their colleagues in APHIS’ Legislative and Public Affairs staff to
ensure that Congress is aware of import policy changes

APHIS recognizes that it did not timely post all updates during the immensely busy period following
the August 8, 2003, announcement. The Agency will continue to move information through the
established channels described above and work to identify new and more efficient ways to ensure all
interested parties receive all necessary information regarding changes in import policy. As we
determine specific improvements regarding the internal communication channels we can use to ensure
all web based notifications are posted in a timely fashion, we will document and implement those
procedures. We anticipate refined procedures will be in place by the end of March 2005.

Recommendation 2:

Develop and implement procedures to monitor APHIS actions with regard to permit issuance
and to confirm that agency practice is consistent with publicly stated policy.

APHIS agrees with this recommendation and has taken action to implement changes in addition to
existing procedures. VS maintains standard operating procedures (SOPs) and standardized permit
language for drafting permits to ensure consistency. We provide all permitting staff with a copy of the
SOP manual and train staff accordingly. The permitting staff holds frequent meetings where experts
discuss and establish procedures for any emerging issues concerning importation of animal origin
material (i.e., Organisms and Vectors, By-products and or meat products). While these mechanisms
have been successful in the past, our systems were clearly strained under the unprecedented volume of
permit requests after the Secretary’s announcement.

NCIE is developing a refined tracking system and enacting protocols to ensure that the NCIE Import
Animal Products Team leaders and the NCIE Director will update the database whenever changes are
made to policies, product certifications statements, and permit guidelines.

We expect to revise the tracking system, including adding a new mail-in database to document policy
changes, product certifications, and permit guidelines, by the end of February 2005. Also, we will add
a NCIE Quickplace site, so staff can communicate about all changes; we expect the new server for this
site to be in place by March 2005.




USDA/OIG-A/33601-01-Hy                                                                         Page 36
                                                                                            Page 4 of 6


Recommendation No. 3

Immediately cancel all permits that allow the importation of beef cheek meat.

To address this recommendation, APHIS will immediately notify by letter holders of permits for
“boneless beef” that such permits do not allow the importation of cheek meat.

Recommendation No. 4

FSIS should implement controls to communicate the specific eligibility of product when the
eligibility status changes.

FSIS agrees with this recommendation and will implement controls to communicate the specific
eligibility of product when the eligibility status changes. FSIS will complete the review and update of
the controls by July 2005.

Recommendation No. 5

FSIS should implement an edit check in its import information system to identify ineligible
product, e.g., beef cheek meat, presented for entry into the United States.

FSIS currently performs quarterly verification of its import information system while monitoring and
overseeing the system and import inspection program performance. In addition, the import inspection
system has a limited set of edit checks that are presently incorporated in its current configuration.
FSIS will enhance this feature of the system by reprogramming the Automated Import Information
System (AIIS) to include drop-down menus containing a specific set of eligible products. The
reprogrammed system will eliminate product description from being entered into a text field and
thereby mitigate or restrict the possibility of ineligible product being entered in the system.

FSIS expects to complete the AIIS reprogramming by January 2006.

Recommendation No. 6

Develop and implement procedures that require consistent terminology when identifying
products

APHIS agrees with this recommendation and will continue efforts underway since the summer of 2004
to ensure that APHIS and FSIS use consistent terminology by May, 31, 2005. To do this, APHIS and
FSIS will make this issue the top priority on the agenda of the regular weekly conference calls the
Agencies staffs conduct. In those cases where FSIS has an established definition in a published
regulation, APHIS will adopt that definition if at all possible. In a case where the FSIS definition is
not appropriate, APHIS will ensure that both agencies understand the different terminology and will
publish an explanation of the difference so the general public can understand the difference and how it
might be applied. After May 31, 2005, the agencies will continue to use the weekly conference call to
ensure that any new terms or issues involving current terminology are discussed and settled quickly.

USDA/OIG-A/33601-01-Hy                                                                          Page 37
                                                                                             Page 5 of 6

An example in the report that highlights the need for consistent terminology relates to the OIG
questions surrounding the eligibility of beef cheeks that entered the U.S. from Canada. The beef
cheeks that entered from Canada from April 21 through June 9, 2004, were in full compliance with the
requirements at the time and were eligible for entry. However, differences in terminology made this a
difficult situation to sort through and without significant detailed conversations with both Agencies,
one could have determined that ineligible product entered due to differences in terminology. This
clearly demonstrates the need for better communication between the Agencies as well as the use of
consistent terminology.

Recommendation No. 7

Develop and implement procedures for notifying applicants of APHIS decision to remove or
revise material requested and required this notification to explain the reasons for APHIS
decision.

APHIS agrees with this recommendation and has begun developing such procedures. APHIS will
develop a series of “form” letters personnel can easily use to explain why permits are denied. Using
these letters should be an effective means of supporting NCIE’s goal of transparency. APHIS will
begin using these new form letters by March 15, 2005.

Recommendation No. 8

Develop and implement procedures to ensure that permits are timely cancelled or amended as
necessary. Implement a monitoring process to validate that such actions occur timely and
accurately.

APHIS agrees with this recommendation and will implement an automated system that can generate
specific tracking reports. Although NCIE does have an electronic system for tracking permit requests
and permits in the Permit Information Tracking System, the process of identifying permits to be
cancelled is cumbersome.

APHIS is working to develop a new, sophisticated E-permits system for use Agencywide. We
anticipate placing the system in use on January 1, 2006. Because this is an agencywide system and is a
very intensive effort, it will take that long to complete it. In the meantime, NCIE is already working
with the Information Technology Staff to improve the Permit Information Tracking System. As a
result NCIE can now query the system by shipper to identity permits to be cancelled.

Recommendation No. 9

Develop and implement procedures that validate all required risk mitigation measures are
consistently included on the permits.

APHIS agrees with this recommendation and has begun taking action to address these points. NCIE
will hire additional staff as funding allows to handle in any future situations where such a large number
of permits are received in a limited amount of time. The recently published final rule on Minimal Risk
Regions will allow the entry of the Canadian products for which APHIS has been issuing permits, so
USDA/OIG-A/33601-01-Hy                                                                           Page 38
                                                                                               Page 6 of 6

the volume should decrease substantially. Meanwhile the NCIE staff will examine protocols to refine
quality control measures and will document and implement these measures by the end of March 2005.

Since risk mitigations are linked to products, we note that OIG’s recommendation here is inherently
related to the evolving definition of boneless beef. Different products require different mitigations – as
such, since the boneless beef encompassed different products as its definition was refined, mitigations
from permit to permit reflected this evolution.

While APHIS is pleased that only 2 percent of the over 1,000 permits issued after the August 8
announcement contained incorrect or missing mitigations, we understand OIG’s concern and share the
desire to correct the problem. APHIS did examine all permits and determined that the missing or
incorrect mitigations were not consequential for ensuring safe product. Mitigations missed included
issues of documentation, and while these requirements are indeed important within our regulatory
framework, NCIE staff did not permit product that was not subjected to the mitigations necessary to
deem it safe.

Recommendation No. 10

Develop and implement a monitoring process that includes onsite reviews of permit holders,
foreign facilities, and inspection personnel at U.S. ports of entry to confirm that restrictions are
adequately implemented.

APHIS agrees that we should have a monitoring process that includes onsite reviews of permit holders,
foreign facilities, and inspection personnel at U.S. ports of entry. However, we believe that given
limited resources the process should provide APHIS with the authority to do the monitoring as deemed
necessary given all factors. It is important to note that nearly all permits issued indicate that exporting
facilities are always subject to APHIS inspection. Therefore, we often reserve the option for on-site
monitoring – in any country or regions – if it becomes necessary. We do not believe it is necessary,
nor do we believe it is feasible, to conduct inspections of all permit holders or foreign facilities. The
process should focus on permit holders and foreign facilities which do not have an established record
of compliance. For example APHIS enjoys a close and transparent working relationship with Canada.
Canadian officials routinely advise VS personnel of issues, investigate issues of concern that we raise,
and solve problems that we note. Canada has a veterinary infrastructure that is at least equivalent to
our infrastructure. Imposing any measures on Canada that undermine our mutual trust would only
harm our efforts to establish equivalency in our trading relationship, thus leading to barriers to U.S.
exports. Imposing mandatory and regular monitoring measures on Canada would waste valuable
resources.

APHIS’ Plant Protection and Quarantine unit is the Agency’s official liaison with the DHS-CBP
border inspection personnel. As part of the transfer agreement between USDA and DHS, the two
agencies will establish a quality control program to ensure that CBP border inspection personnel are
effectively carrying out the agriculture inspection mission. Negotiations to establish the quality control
program have been ongoing for several months, but are complicated by the sensitive homeland security
issues involved in granting USDA officials access to ports of entry. We expect to finalize the quality
control program by July 31, 2005, but must emphasize that this is not totally within APHIS’ ability to
effectuate.
USDA/OIG-A/33601-01-Hy                                                                             Page 39
Informational copies of this report have been distributed to:

Administrator, APHIS
   ATTN: Agency Liaison Officer (9)
Administrator, FSIS
   ATTN: Agency Liaison Officer (10)
General Accountability Office (1)
Office of the Chief Financial Officer
  Director, Planning and Accountability Division (1)
